<html>
<title> - BIOSCIENCE AND THE INTELLIGENCE COMMUNITY PART I AND II</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                           BIOSCIENCE AND THE
                         INTELLIGENCE COMMUNITY
                             PART I AND II

=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON PREVENTION
                    OF NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                    FIRST SESSION and SECOND SESSION

                               __________

                    NOVEMBER 3, 2005 and May 4, 2006

                               __________

                           Serial No. 109-53

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

35-695 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK



                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     3
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    25
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    30
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    21

                               Witnesses
                       Thursday, November 3, 2005

Mr. David A. Relman, M.D., Associate Professor, Microbiology & 
  Immunology, and of Medicine, Stanford University:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. David R. Franz, D.V.M., Ph.D., Vice President & Chief 
  Biological Scientist, Midwest Research Institute:
  Oral Statement.................................................     9
  Prepapred Statement............................................    10
Mr. Michael J. Hopmeier, Chief, Innovative and Unconventional 
  Concepts, Unconventional Concepts, Inc.:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                         Thursday, May 4, 2006

Mr. Charles Allen, Chief Intelligence Officer, Department of 
  Homeland Security:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50
Ambassador Kenneth Brill, Director, National Counterproliferation 
  Center, Office of the Director of National Intelligence:
  Oral Statement.................................................    41
  Prepared Statement.............................................    45
Dr. Alan MacDougall, Chief, Counterproliferation Support Office, 
  Defense Intelligence Agency:
  Oral Statement.................................................    57
  Prepared Statement.............................................    58
Mr. Bruce Pease, Director, Weapons Intelligence, Nonproliferation 
  and Arms Control, Central Intelligence Agency:
  Oral Statement.................................................    54
  Prepared Statement.............................................    55


                           BIOSCIENCE AND THE



                         INTELLIGENCE COMMUNITY



                                 PART I

                              ----------                              


                       Thursday, November 3, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
                      Subcommittee on Prevention of Nuclear
                                    and Biological Attacks,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 334, Cannon House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Shays, Simmons, Langevin, 
and Dicks.
    Mr. Linder. [Presiding.] The Homeland Security Subcommittee 
on Prevention of Nuclear and Biological Attack will come to 
order.
    I want to thank our witnesses for being here today.
    In 2001, America was awakened to the reality of 
bioterrorism when five individuals died across the country as a 
result of a still-unsolved terrorist attack involving anthrax. 
In addition to those tragic deaths, 17 others developed anthrax 
infections. Thousands were placed on a regimen of cipro and a 
number of businesses, as well as House and Senate office 
buildings, were closed for months for decontamination.
    Our experience in 2001 was a wake-up call. Prior to 2001, 
the United States saw the threat of biological weapons was 
largely in strategic or military terms. At that time, no one 
seriously believed that this country would fall victim to a 
biological event due to the fear of nuclear retaliation. Our 
thinking, as we have since discovered, was 100 percent wrong.
    One area that must be improved is our intelligence. In 
March of 2005, the report from the Silberman-Robb Commission on 
the Intelligence Capabilities of the United States Regarding 
Weapons of Mass Destruction recommended that the United States 
improve its biological weapons intelligence. The principal 
theme of the report was the need to increase interaction 
between the intelligence community and the national security 
professionals.
    As chairman of the subcommittee, I can tell you that 
overseeing our efforts to prevent a nuclear event are 
relatively easy compared to the biological side, because 
scientists, federal agencies and the intelligence community and 
relevant international players all regularly talk with each 
other about nuclear security. We need a similar system for 
biological pathogens and technology, and we need it soon.
    It is incumbent upon us to face a reality that dangerous 
organisms like anthrax and botulism toxin, which occur 
naturally in the environment, can easily be acquired or even 
grown by terrorists bent on using them against the American 
people. We need a robust communication link between the 
intelligence and bioscience communities, education for 
researchers on the dangers on the misuse of biotechnology, and 
more stringent guidelines for handling or shipping biological 
pathogens if we are to significantly diminish this threat.
    I understand and appreciate the use of biological pathogens 
for scientific purposes, but we fail in our responsibility to 
nearly 300 million Americans if we do not ensure that those 
same dangerous organisms never fall into the hands of those who 
would release them on an unsuspecting and ill-prepared public. 
The focus of today's hearing should be on answering the 
question of how can the intelligence and bio communities best 
communicate toward that end.

                 Prepared Statement of Hon. John Linder

                       Thursday, November 3, 2005

    I would like to thank our witnesses for appearing before this 
Subcommittee today.
    In 2001, America was awakened to the reality of bioterrorism when 
five individuals died across the country as a result of a still-
unsolved terrorist attack involving anthrax. In addition to those 
tragic deaths, seventeen others developed anthrax infections, thousands 
were placed on a regiment of Cipro, and a number of businesses, as well 
as the House and Senate Office Buildings, were closed for months for 
decontamination.
    Our experience in 2001 was a wake up call. Prior to 2001, the 
United States saw the threat of biological weapons in largely strategic 
or military terms. At that time, no one seriously believed that this 
country would fall victim to a biological event due to the fear of 
nuclear retaliation. Our thinking, as we have since discovered, was 100 
percent wrong.
    One area that must be improved is our intelligence. In March 2005, 
a report from the Silberman/Robb Commission on the Intelligence 
Capabilities of the United States Regarding Weapons of Mass Destruction 
recommended that the U.S. improve its biological weapons intelligence 
capability. The principal theme of the report was the need to increase 
interaction between the intelligence community and national security 
professionals.
    As Chairman of this Subcommittee, I can tell you that overseeing 
our efforts to prevent a nuclear event are relatively easy compared to 
the biological side. Nuclear scientists, Federal agencies, the 
intelligence community, and relevant international players all 
regularly talk with each other about nuclear security. We need a 
similar system for biological pathogens and technology, and we need it 
now.
    It is incumbent upon us to face a reality that dangerous organisms 
like anthrax and botulinum toxin, which occur naturally in the 
environment, can be easily acquired or even grown by terrorists bent on 
using them against the American people.
    We need a robust communication link between the intelligence and 
bioscience communities, education for researchers on the dangers of 
misuse of biotechnology, and more stringent guidelines for handling or 
shipping biological pathogens, if we are to significantly diminish the 
threat.
    I certainly understand, and appreciate, the use of biological 
pathogens for scientific purposes, but we fail in our responsibility to 
nearly 300 million Americans if we do not ensure that those same 
dangerous organisms never fall into the hands of those who would 
release them on an unsuspecting and ill-prepared public. The focus of 
today's hearing should be on answering the question of how can the 
intelligence and bio communities best communicate toward that end, and 
I look forward to the testimony of our witnesses on that topic.
    I now recognize my friend from Rhode Island, Mr. Langevin, for the 
purposes of making an opening statement.

    Mr. Linder. I look forward to the testimony of our 
witnesses on that topic, and I yield 5 minutes to the gentleman 
from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I would like to welcome and thank our witnesses for 
appearing before us today.
    Today, we are going to discuss a topic that many us of 
might not have thought much about before, the idea of medical 
and biological intelligence. Now, we are fortunate to have 
three experts in this not-so-well-known field here today to 
help educate us.
    I know from my service on the House Armed Services 
Committee the importance of the military place in medical 
intelligence. I know how crucial it is for the battlefield 
commander to have a clear picture of all the hazards that his 
troops may face.
    Often this includes not only the capabilities of the 
enemy's weapons, but also the local epidemiology; the diseases 
in the local water supply that his soldiers should be aware of; 
or communicable diseases that he must protect them against. 
Does the enemy possess chemical or biological weapons 
capabilities? If so, what is the most effective countermeasure?
    These are the kinds of questions that medico-and bio-
science intelligence professionals in the military must answer. 
I think there are lessons that can be learned from the 
military's approach to help us protect not just our service men 
and women, but our civilian population as well.
    Of course, there are also differences. If a military 
commander is told that his soldiers will be operating in an 
area where anthrax is endemic among animals such as 
Afghanistan, he can simply order his troops to be vaccinated. 
This does not always translate to the civilian population, 
however.
    We know, for example, that 2 years ago the president 
pledged to vaccinate both the military and first-responder 
community against smallpox. The plan was to vaccinate 500,000 
members of each community. While the program succeeded among 
the military, it failed miserably in the first-responder 
community, with only 40,000 vaccinated, less than 10 percent of 
the target goal.
    So while I do believe there are many useful lessons that we 
can adapt from the military's experience, I know that we cannot 
apply all of the systems and procedures directly to the 
civilian side. I hope our witnesses will elaborate on where we 
should and should not be seeking to draw comparisons, and also 
I am interested to learn more about the similarities and 
differences between bio-weapons and naturally occurring 
diseases.
    For example, will systems used to detect and defend against 
bio-weapons also be effective for naturally occurring diseases? 
From what I have seen, and I hope that the witnesses will 
correct me if I am wrong, the potential seriousness, for 
example, of an avian flu pandemic is much greater than any 
scenarios that have been seen for a possible bio-weapons 
attack.
    So while this committee and the Department of Homeland 
Security are more focused on intentional attacks, rather than 
natural catastrophes, we hope that we can leverage our 
practices so that they will be helpful for either eventuality.
    We have seen from the recent Gulf Coast hurricanes that the 
Department of Homeland Security, if it focuses purely on 
terrorism, will fail the American people. I look forward to an 
open and informative discussion today. Once again, I thank the 
witnesses for being here and I look forward to your testimony.
    Mr. Chairman, I yield back.
    Mr. Linder. I thank the gentleman.
    Our witnesses today are Dr. David Relman, associate 
professor of microbiology and immunology and of medicine at 
Stanford University; Dr. David Franz, vice president and chief 
biological scientist at Midwest Research Institute; and Mr. 
Michael Hopmeier, the president of Unconventional Concepts, 
Inc.
    We welcome you all.
    Dr. Relman? We would ask you to try and keep your statement 
to about 5 minutes. The entire statement, without objection, 
will be made part of the record.

                   STATEMENT OF DAVID RELMAN

    Dr. Relman. Thank you. Good morning, Chairman Linder and 
members of the committee. It is an honor to be able to present 
my thoughts to you on a topic of substantial importance to the 
security of the United States.
    I am trained both as a physician specializing in infectious 
diseases and as a microbiologist, and currently run a research 
laboratory in the academic sector. I have served as a professor 
of medicine and of microbiology at Stanford since 1994.
    In 1997, I joined a newly formed advisory group for the 
Defense Intelligence Agency known as BioChem 2020. This group 
of academic, industry and government experts, which also 
includes Dr. Franz to my left, identifies and assesses current 
and future threats related to the potential misuse of the life 
sciences and advises the intelligence community on these 
matters.
    Among other relevant activities, I am currently a member of 
the National Science Advisory Board for Biosecurity.
    Today, we are blessed with a set of unprecedented 
opportunities in the life sciences, and with them a set of 
serious and formidable challenges. The pace of advance in the 
life sciences continues to accelerate at a rapid rate. These 
advances have become globally disseminated and widely 
accessible. While these advances enable broad and powerful new 
tools for improving health and treating disease, they also 
carry with them unavoidable inherent risks of misuse and 
possible harm.
    One of the most important approaches for addressing these 
potential threats is to anticipate and interdict them before 
they cause harm. To do this, one needs a robust, experienced, 
agile and creative intelligence collection and analysis 
capability. So how does this need stack up against current 
capabilities?
    Unfortunately, current intelligence community expertise in 
the life sciences is not sufficient to meet these challenges. 
Historically, most investments in science and technology 
expertise within the intel community have been in the physical 
sciences. Relatively few biologists have been recruited to work 
within this community.
    Those that have been recruited are thinly and unevenly 
distributed across vast agencies. There are assigned huge 
portfolios. They are frequently reassigned to entirely new 
areas of work or moved to new administrative positions, and 
they quickly become sequestered from the daily buzz of activity 
in the life sciences. Separation from today's life sciences 
workplace inevitably leads to ineffectiveness and irrelevance. 
In short, at the present time, bioscience expertise within the 
intelligence community is patchy and thin, inadequately 
coordinated, and rapidly outdated.
    So let me offer some thoughts about two basic solutions, an 
internal approach and an external approach. First, in building 
a more robust, sustained and effective capability in the life 
sciences within the intelligence community, it is critical that 
state-of-the-art scientific expertise guide both intelligence 
collection and analysis. Additional researchers with doctoral 
degrees in the life sciences and working experience at the 
cutting edge of science need to be recruited in substantial 
numbers to the intelligence community. Significant efforts will 
also be needed to retain these individuals and maintain their 
intimate familiarity and connectedness with the state-of-the-
art in their respective disciplines.
    Second, efforts to create a robust external advisory entity 
to the intelligence community on current and future biological 
threats should be expanded, strengthened and accelerated. On 
this point, I support Recommendation 13.1 of the Commission on 
the Intelligence Capabilities of the United States Regarding 
Weapons of Mass Destruction, aka the Silberman-Robb Commission, 
which suggests the creation of a Biological Sciences Advisory 
Group.
    DIA's BioChem 2020 illustrates some of the features that 
would be desirable. This advisory group should provide guidance 
on anticipating future technological and conceptual 
developments in the life sciences; provide guidance on 
intelligence targeting and collection requirements; provide 
expert analysis of relevant intelligence; and provide an 
independent reality check on technical assessments in the life 
sciences.
    The group should operate under the auspices of the national 
security and intelligence community leadership and provide 
input at the highest levels of these communities. The group 
should operate independently and initiate its own analyses, as 
well as respond to requests. The group should also be composed 
of leading experts from academia, industry and government from 
a wide range of disciplines.
    A core set of dedicated members should meet frequently 
enough to establish close working relationships with the 
intelligence community. This has been a particularly important 
and successful feature of DIA's BioChem 2020. It is my sense 
that many leading figures in the life sciences and technology 
communities would be more than willing to participate in this 
effort to establish a productive and effective working 
relationship with members of the intelligence community.
    In conclusion, we face daunting challenges from rapidly 
accelerating advances in the life sciences and the inherent 
dual-use risks that they pose. Anticipating, recognizing and 
interdicting emerging biological threats will not be easy, but 
we cannot afford not to try. I believe that the time is now 
opportune for action.
    I am happy to answer any questions. Thank you.
    [The statement of Dr. Relman follows:]

                 Prepared Statement of David A. Relman

                       Thursday, November 3, 2005

    Good morning Chairman Linder, Ranking Member Langevin, and Members 
of the Committee. It is an honor to have this opportunity to present my 
thoughts to you on a topic of substantial importance to the security of 
the United States. To begin, let me provide you with a few brief 
comments on my background and the expertise that I bring to the issues 
at hand today.
    I am trained both as a physician and practitioner of infectious 
diseases, as well as a research microbiologist, and currently run a 
laboratory of basic investigation into the mechanisms of microbial 
disease and the discovery of novel microbial agents of disease. I have 
served as a professor of medicine and of microbiology at Stanford 
University since 1994. Through relationships forged in the mid-1990's 
as a research funding recipient and reviewer for the Defense Advance 
Research Projects Agency, I was asked in 1997 to join a newly-formed 
advisory group at the Defense Intelligence Agency, known as Biochem 20/
20. This group of academic, industry, and government experts (which 
also includes Dr. Franz) identifies and assesses current and future 
threats related to the potential misuse of the life sciences and 
associated technologies, and advises the intelligence community. I have 
participated in a variety of studies at the National Academies of 
Science on future biological threats, served on biodefense advisory 
groups for the Departments of Defense and Energy, and am currently a 
member of the National Science Advisory Board for Biosecurity.

Challenges
    Today, we are blessed with a set of unprecedented opportunities in 
the life sciences and with them, a set of serious and formidable 
challenges. The pace of advance in the life sciences and related 
technologies continues to accelerate at a dizzying rate. New insights 
and discoveries are arising in unpredictable fashion from the 
convergence of previously unrelated scientific disciplines. These 
advances in the life sciences have become globally disseminated, and 
made widely accessible due to the inherent openness of the life 
sciences enterprise. For example, biological engineering of microbes 
can now be executed in the home. While these advances enable broad and 
powerful new tools for improving health and treating disease, they also 
carry with them unavoidable, inherent risks of misuse and possible 
harm.
    One of the most important approaches for addressing these potential 
threats is to anticipate and interdict them before they cause harm. 
(This concept is relevant to biological threats of both natural and 
man-made origin.) Prevention is far more cost-effective than response 
and recovery. To be able to anticipate future biological threats one 
needs a robust, experienced, agile and creative intelligence collection 
and analysis capability. How does this need stack up against current 
capabilities?

Reality Check
    Unfortunately, current intelligence community capabilities and 
expertise in the life sciences and related technologies are not 
sufficient to meet these challenges. Historically, most investments in 
expertise within the intelligence community in the realm of science and 
technology have emphasized the physical sciences. (When referring to 
the ``intelligence community'', I mean to include the national security 
communities at large.) Relatively few biologists have been recruited to 
work within this community. Those that have been recruited are thinly 
and unevenly distributed across vast agencies, assigned huge 
portfolios, and quickly become sequestered and cut off from the daily 
buzz of communication, sharing and discussion that is the essential 
fuel of the life sciences. Separation from today's workplace in the 
life sciences inevitably leads to ineffectiveness and an inability to 
appreciate the cutting edge or to predict future trends. This problem 
is compounded when analysts and collectors are re-assigned to entirely 
new areas of work or moved to new administrative positions on a 
frequent basis. In short, at the present time, bioscience expertise 
within the intelligence community is too patchy and thin, inadequately 
coordinated, unsustained, and becomes rapidly outdated.
    In theory, an inadequate set of resources within the intelligence 
community might be partially offset by efforts to borrow or share 
resources (e.g., expertise) from outside the community. For example, 
groups of outside experts might provide a continuing, direct link to 
some of the most relevant, advancing frontiers in the life sciences, as 
well as assessments of future threats and current intelligence. 
Although efforts of this type have taken place, and are worth 
discussing in some detail as part of this hearing, the net result has 
failed so far to meet the community's needs. However, I believe that 
more can be done with this approach, as well as with complementary 
approaches to build the internal expertise of the intelligence 
community. In particular, I am relatively optimistic that the 
traditional cultural barriers between this community and today's life 
sciences communities can be overcome.

Possible solutions
    Let me offer some thoughts about two basic solutions: an internal 
approach and an external approach.
    First, in building a more robust, sustained and effective internal 
capability in the life sciences within the intelligence community, it 
is critical that state-of-the-art scientific expertise guide both, 
intelligence collection and intelligence analysis.
    --Researchers with doctoral degrees in the life sciences and 
working experience at the cutting edge in their respective fields need 
to be recruited in substantial numbers to the intelligence community.
    --Significant efforts will also be needed to retain these 
individuals and maintain their intimate familiarity and connectedness 
with the cutting edge in their respective disciplines. Regular 
assignments to the scientific workplace may be necessary. Continuing 
advanced scientific education is essential. The intelligence community 
should avoid assigning these scientists to unrelated jobs and 
responsibilities.
    Second, efforts to create an external advisory entity to the 
intelligence community on matters related to threats from the life 
sciences and related technologies should be expanded, strengthened, and 
given high priority. On this point, I support Recommendation 13.1 of 
The Commission on the Intelligence Capabilities of the United States 
Regarding Weapons of Mass Destruction (Report, March 31, 2005; 
Silberman and Robb, Co-Chairmen) which suggests the creation of an 
advisory group, that they have named the ``Biological Sciences Advisory 
Group''. DIA's Biochem 20/20 provides some examples of features that 
would be desirable.
    --This advisory group should provide guidance on anticipating 
future technological and conceptual developments in the life sciences, 
provide guidance on intelligence targeting and collection requirements, 
provide expert analysis of relevant intelligence, and provide an 
independent ``reality-check'' on technical assessments in the life 
sciences.
    --The group should operate under the auspices of the national 
security and intelligence community leadership, and provide input at 
the highest levels of these communities. The WMD Commission suggestion 
that such a group report to the Director of National Intelligence 
should be strongly considered.
    --The group should operate independently and initiate its own 
analyses, as well as respond to requests from the intelligence, 
national security, and policy-making communities. It should have access 
to any and all intelligence that is relevant to its work. The group 
should generate analysis products that are available to the broad 
outside scientific community, as well as products at the classified 
level.
    --The group should be composed of leading experts from academia, 
industry, and government, from a wide range of disciplines. A core set 
of dedicated members should meet frequently enough to establish close 
working relationships between the outside experts and the intelligence 
community representatives. This has been a particularly important and 
successful feature of DIA's Biochem 20/20.
    --Given that both, potential threats and solutions are globally 
dispersed, every effort should be made to share the output of this 
advisory group with its international counterparts.
    It is my sense that many leading figures in the life sciences and 
technology communities would be more than willing to participate in a 
serious effort to establish a productive and effective working 
relationship with members of the intelligence community.

Conclusions
    In conclusion, we face daunting challenges from rapidly 
accelerating advances in the life sciences and related technologies, 
and the inherent dual use risks that they pose with respect to 
potential future biological threats. Anticipating, recognizing and 
interdicting these threats will not be easy. But we cannot afford not 
to try. The critical elements of a meaningful effort in this regard 
will include 1) building a more robust and sustained expertise in the 
life sciences within the intelligence community, and 2) creating an 
external expert advisory group with a close working relationship to 
this and related communities. Given the similarity of my 
recommendations with those from other policy and review groups, and 
what I perceive to be receptive, relevant parties, the time is now 
opportune for action.
    I am happy to answer any questions.
    [GRAPHIC] [TIFF OMITTED] 35695.001
    

    Mr. Linder. Thank you, Dr. Relman.
    Dr. Franz?

 STATEMENT OF DAVID FRANZ, VICE PRESIDENT AND CHIEF BIOLOGICAL 
             SCIENTIST, MIDWEST RESEARCH INSTITUTE

    Mr. Franz. Mr. Chairman, distinguished members, it is an 
honor to appear before you to address issues related to the 
interface between the intelligence and scientific communities 
and the potential benefit to be gained by bringing these 
communities more closely together to address biological threats 
to the nation.
    My background is described in my written statement. I have 
attempted to provide my views in a submitted statement for the 
record and will summarize them here.
    I believe that biological warfare is unique for several 
reasons. I highlight the fact that the facilities, equipment, 
procedures and human resources needed to develop biological 
weapons are dual-use. This means that they can be used to do 
good or bad things with biology. Therefore, it is in fact often 
impossible to understand the ultimate purpose of ongoing 
research simply by inspecting a facility and even having the 
opportunity to visit with scientists working there.
    As an example, we learned relatively very little about the 
enormous biological warfare program in the former Soviet Union 
before the epidemiological studies of the Sverdlovsk anthrax 
accident and the defection of two key scientists in the early 
1990s. At the end of the Cold War, as a result of the 
Trilateral Agreement, U.S.-U.K.-Russia, of 1992, we gained some 
access to Russian biological facilities, but very little true 
understanding of the programs.
    More importantly, I watched personally as those 
negotiations and visits build walls of silence and suspicion 
and shut down communication until the trilateral negotiations 
failed and the Nunn-Lugar science-based programs stimulated 
dialogue directly between scientists. I believe there are 
important lessons to be learned from this experience.
    Our more immediate concern today, biological terrorism, 
differs from biological warfare in that, one, the footprint of 
both the production capability and the weapon can be infinitely 
smaller; and two, attribution will typically be a great deal 
more difficult. The goals of the terrorist are different. 
Depending on the agent selected, I believe that disruptive 
deployment of a biological weapon of some kind is possible for 
almost anyone with intent. Furthermore, there is a broad range 
of potential threats presenting minimal to very significant 
technical barriers for the would-be terrorist, but intent is 
central to any attempt to abuse biology.
    What does this mean for the intelligence community? One, 
what we learn about intent will be more valuable than what we 
know about capability. Two, even in this new small world, we 
will be forced to make high-regret decisions or responses with 
less information in the future than in the past. And three, we 
must constantly thrive, as Dr. Relman said, to bring deep 
biological science understanding to the IC.
    What can we do? First, we must hire and retain the best 
people we can. The cultures of science and intelligence are in 
many ways antithetical. Science is about communication, 
collaboration, openness and flexible work schedules and getting 
lifetime credit for the work that one does. Intelligence, on 
the other hand, is about sensitive or classified information; 
about working with another's data and publications and not 
sharing and not giving credit for one's analysis and thought, 
at least not widely. When we do succeed in hiring first-rate 
scientists into the IC, they too often become disenchanted with 
the culture in which they must work.
    And two, we must attempt to benefit from the experience and 
perspective of the private sector. Biotechnologies, as Dr. 
Relman said, are both changing rapidly and spreading, with 
broad and diverse applications across disciplines around the 
globe. Science and business travelers today together cast a 
much wider net than can ever be formally assembled by our 
government.
    Finally, I believe that a reasonable analogy to the problem 
we face in preparing the IC workforce to deal with science as 
squishy as biology is foreign language qualification for 
regional studies. The better my French, the richer will be my 
experience on a holiday in France and the more the French 
people will enjoy interacting with me.
    Science is a common language. The better my understanding 
of the technologies and the vocabulary and the idiom, the 
richer will be my experience talking science anywhere in the 
world, and the more my colleagues will enjoy our time together. 
When scientists talk about scientists, transparency is enhanced 
and intent often becomes better understood. As I have said, I 
believe that intent is the key to discovering those who would 
mis-use biology today.
    I thank you for this opportunity.
    [The statement of Mr. Franz follows:]

                   Prepared Statement of David Franz

                       Thursday, November 3, 2005

    Mr. Chairman, distinguished Members, it is an honor to appear 
before you to address issues related to the interface between the 
intelligence and scientific communities and the potential benefit to be 
gained by bringing these communities more closely together to address 
biological threats to the nation. I am currently Vice President and 
Chief Biological Scientist at the Midwest Research Institute in Kansas 
City, Director of the National Agriculture Biosecurity Center at Kansas 
State University and Senior Fellow for Bioterrorism at the Combating 
Terrorism Center at West Point. I served on active duty in the U.S. 
Army from 1971 to 1998, 24 of those years in the U.S. Army Medical 
Research and Materiel Command. I served for 11 years at the U.S. Army 
Medical Research Institute of Infectious Disease, which I commanded 
before my retirement. During my tour of duty at USAMRIID, I served as 
Chief Inspector on three UNSCOM biological warfare missions to Iraq and 
as technical expert on the Trilateral (US-UK-Russia) Agreement visits 
and negotiations to Russia. I have worked under the auspices of the 
``Nunn-Lugar'' Cooperative Threat Reduction (CTR) Program in the Former 
Soviet Union (FSU) since 1994 and, since 1998, chaired the National 
Academies of Science standing committee which provides technical review 
to the CTR-supported research conducted there. I currently serve on 
senior S&T advisory biodefense panels for the Defense Threat Reduction 
Agency and for the Department of Homeland Security, Science and 
Technology Directorate and I chair the Working Group on International 
Collaboration of the National Science Advisory Board for Biosecurity 
(NSABB) within the Department of Health and Human Services. The myriad 
opportunities given me throughout my career in military medical 
research have led me to better understand and value the use of science 
as a common language to build relationships, understanding and 
transparency internationally.
    This committee has asked that I provide thoughts on how the 
scientific community can be more effectively engaged by the 
intelligence community and some broad perspective on how to address the 
problem of intelligence regarding the biological threat(s). I have 
attempted to provide my views on a number of these issues below.

BACKGROUND:
    Why is biology special? I believe that biological warfare is unique 
for several reasons. First, the facilities, equipment, procedures and 
human resources needed are ``dual-use''. This means that they can be 
used to do good or bad things with biology. When attempting to 
understand what is going on within a state scientific program or the 
laboratory of a non-state organization, understanding the intent of 
those who control these dual-use resources is more important than our 
access to the facilities. It is, in fact, often impossible to 
understand the ultimate purpose of ongoing research simply by 
`inspecting' a facility and even having the opportunity for typically-
orchestrated, monitored and, therefore, stilted discussion with the 
scientists. Additionally, biology is special because, in contrast to a 
chemical attack, for example, we cannot yet provide real-time warning 
to effectively use personal protective gear. Thirdly, clinical disease 
resulting from biological exposure occurs hours or days after attack. 
Unlike most other weapons systems, the relatively long latent period 
between attack and illness provides opportunity for perpetrators to 
escape and greatly complicates both the medical care of victims and law 
enforcement activities.
    Lessons from the cold war: We learned relatively very little about 
the enormous biological warfare program of the FSU before the 
epidemiological studies of the 1979 Sverdlosk anthrax accident and the 
defection of two key scientists to the west which occurred in the early 
90s. Our intelligence failure may have been the result of a combination 
of the uniqueness of biology and a relatively lower concern for the 
biological threat than for the nuclear or chemical threats during those 
years. Coincidentally, there was much more interaction between nuclear 
scientists from the USSR and the US during this period than there was 
between biological scientists from the two countries. . .and we 
understood their nuclear program better during that period. At the end 
of the cold war, as a result of the Trilateral agreement of 1992, we 
gained some access to Russian biological facilities but very little 
true understanding of the programs. Confidently inferring intent from a 
formal facilities visit or inspection was the exception. More 
importantly, I watched as those negotiations built walls of silence and 
suspicion and shut down communication. . .until the Trilateral 
negotiations failed and Nunn-Lugar science-based programs opened 
dialogue directly between scientists. The CTR programs haven't made us 
totally safe, but they helped both sides understand better what we did 
and didn't know. In my experience, more good has come from the 
resulting personal relationships build around the science than from 
formal government programs calculated to control proliferation. There 
are important lessons to be learned from this experience.
    Biological Warfare vs. Biological Terrorism: Dealing with the 
massive offensive biological programs of the FSU, frustrating as the 
process was during the ``Trilateral Era'', will likely prove to have 
been easier than what we will face in the future. Biological terrorism 
differs from biological warfare in that 1) the footprint of both a 
production capability and the biological weapon itself can be 
infinitely smaller and 2) attribution will typically be a great deal 
more difficult. Finally, we need only look to the ``anthrax letters of 
`01'' to see how disruptive and costly a very small attack can be.
    How to think about the threat: Today's threat probably differs 
significantly from that during the height of the USSR's massive 
offensive program. Because of strategic changes in centers of power and 
world politics, terrorists are believed to be a more likely threat than 
state-run programs. Whether state-sponsored or not, the magnitude of an 
aerosol attack launched by a terrorist group will likely be smaller and 
more primitive than what we would have expected from the USSR. We 
normally consider access to the agents, technical expertise, the need 
for facilities and equipment and the intention to use biology as a 
weapon as the key barriers to success for the would-be terrorist. 
Depending on the agent selected, I believe that disruptive deployment 
of a biological attack of some kind is possible for almost anyone with 
intent. To illustrate this point--the spectrum from ``easy'' to 
``hard''--I often use the following simplified model. Success on the 
``easy'' end of the spectrum requires just a little more than intent.

Easy<-------------------------------------------------------------------
                               >Difficult

    Few Technical Barriers                                      Many
                                                              Technical
                                                              Barriers
                                 Contagious    Traditional
  Highly Contagious (Animal)       (Human)        Agent      Genetically
                                                             engineered

(Foot & Mouth Virus)            (SARS, Flu,   (Anthrax,     (????????)
                                 Smallpox)     tularemia)

Simply Introduced               Introduced    Delivered as  Introduced
                                 or Aerosol    an Aerosol    or Aerosol

Available                       (Available)   Available in  Modified or
                                               Nature        de novo
Spread Naturally                Spread        Understandin  Significant
                                 Naturally     g             Expertise
Safe to handle                  Safety        Basic         Complex
                                 Hazard        Equipment     Equipment
                                ............  Safety        Unknown
                                               Hazard        Safety
                                                             Hazard

    Therefore, there is a broad range of potential threats presenting 
minimal to very significant technical barriers for the would-be 
terrorist. . .but intent is central to any attempt to abuse biology.

CONCLUSIONS:
        What does all this mean for the intelligence community?
    1-Although we definitely cannot ignore Soviet or Iraqi--like 
programs in the future, we must be able to discover a terrorist-size 
program now, if possible at the point of early intent.
    2-The biological intelligence target of today will likely be harder 
to identify, let alone penetrate, than it was during the cold war.
    3-What we learn about `intent' will be more valuable than what we 
know about capability.
    4-Even in this new, small world, we will be forced to make high-
regret decisions or responses with less information in the future than 
in the past.
    5-A ``we only collect secrets'' culture, sometimes fostered within 
the IC, will leave too much white space between the dots to build the 
real story regarding biology, unless we have a broad framework of 
scientific understanding on which to pin the relatively few science 
``secrets'' which we do discover.
    6-We must constantly strive to bring deep biological science 
understanding to the community. Analysts need to learn of the latest 
discoveries in biology, understand the newest technologies and 
appreciate their implications for intentional abuse.

RECOMMENDATIONS:
    What can we do? As in any undertaking, the best people with the 
best leadership will provide the best outcome to this challenge. We 
must put the best people we can into the intelligence community and 
give them the best leadership and supporting infrastructure we can 
afford.

We must:
    1. Hire and retain the best: The cultures of science and 
intelligence are, in many ways, antithetical. Science is about 
communication, collaboration, openness and flexible work schedules. 
Scientists love to publish and they love to tell people about their 
work. The currency of science is open, refereed publications and 
presentations at national and international meetings. Scientists are 
free to publish in journals and, once accepted, their work is forever 
credited to them. Scientist care more about discovery and publishing 
than about salary, fancy offices or in what part of the country or 
world they live. Scientists love to communicate with other scientists. 
Intelligence is about sensitive or classified information, about 
working with another's data and publications, about not sharing and not 
getting credit for ones analysis and thought. . .at least not widely. A 
common task of the analyst might be to distill and simplify, often 
dated, often openly published literature and then to make giant leaps 
of interpretation regarding it's meaning in unknown context. . .and 
then to speculate on the intent of a person or group. A ``we only 
collect secrets'' mentality_especially in the world of bioterrorism_
might provide us historical intelligence but probably not actionable 
intelligence. A culture where knowledge is power, openness is not 
advocated and there are few checks and balances can draw second rate 
scientists who package speculation as hard evidence. Even the initial 
excitement of directly briefing key national decision makers gets old 
for real scientists. When we do succeed in hiring first-rate scientists 
into the IC (intelligence community), they too often become 
disenchanted with their work and the culture. We must find a way to 
hire and retain a quality, scientifically literate intelligence 
workforce. Traditionally, the community has put analyst expertise 
before science expertise; if that policy is to continue, every effort 
must be made to give biodefense analysts opportunities to interact with 
scientists, engineers and other relevant experts just as often as 
possible.

We might:
    1-Encourage analysts to obtain joint appointments at universities 
or industrial research programs and collaborate with full-time 
scientists.
    2-Allow analysts to spend as much as 1/3 of their time ``off the 
clock'', working in academe, industry or other governmental 
laboratories. . .and make publication a part of their performance plan 
on which they are rated. In some cases, this might mean 2 days per week 
away from the job and in others it might be every third year away.
    3-Develop true joint-appointment programs in which an academic or 
industrial scientist serves the smaller portion of a FTE within the IC 
with a primary career outside.
    Fundamentally, it is much more critical today than during the cold 
war that the analyst continually interacts with the community of 
scientists, outside the IC. A non- or weak-scientist, analyst or 
collector briefed by scientists and sent into the scientific culture 
will fail to engage and learn. The stronger the scientist, the better 
the engagement, the understanding and the trust. . .and the 
transparency.
    Making the best and the brightest interested scientists available 
to our analyst community has value. The DIA Red Team 20/20, on which 
both Dr. Relman and I serve, has demonstrated the enormous value of 
bringing together the security and the scientific communities. Dr. 
Relman and four or five exceptional colleagues from academe provide the 
rest of us a wealth of hard science against which we can evaluate our 
thoughts and concerns. Even in this setting, although the members of 
this committee are all US citizens and have common goals regarding 
understanding future threats to our nation, it took several years to 
build a sense of `team' in this diverse group. The glue was, and is, 
the science.

    2. Attempt to benefit from the experience and perspective of the 
private sector: Biotechnologies are both changing rapidly and spreading 
with broad and diverse application--across disciplines--around the 
globe. Electronic communication, ease of rapid travel, new 
opportunities for free enterprise and a generally more widespread 
openness in formerly closed societies have greatly increased 
integration and human interaction among scientists and business persons 
worldwide. These travelers, together, cast a much wider net than can 
ever be formally assembled by our government. We should seek 
opportunities for these traveling masses to provide interaction and 
feedback to the community on what's ``out there'' in terms of 
technologies and capabilities. Discoveries and observations, regarding 
intent, gained from the private sector will obviously occur much more 
often by chance than by design, but the numbers and coverage could make 
it a very helpful tool, if we can harness it effectively. It is 
important that the intelligence community---or possibly the law 
enforcement agency to which someone might report an unusual incident---
remain passive receptors of information from the private sector. 
Gaining such information from scientists, clinicians and other 
knowledgeable individual traveler-citizens is a slippery slope; abuse 
will do much more harm than good.

We should:
    1-Encourage, not discourage, interactions between U.S. science and 
business and their counterparts around the world.
    2-Sensitize this community, or parts of it, to the importance of 
informing someone, should they observe or hear of what appears to be 
malevolent intent. Education of the masses of scientists and 
biotechnology business person will have to occur indirectly, raising 
general awareness of the importance of controlling the misuse of 
biology, rather than tasking them to ``hunt for bioterrorists''. 
Activities currently underway by non-governmental organizations, the 
National Academies of Science and even the World Health Organization, 
to educate and develop awareness regarding the misuse of biotechnology, 
(See ``Biotechnology Research in an Age of Terrorism'' <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b58485f5">[email&#160;protected]</a> www.nap.edu) 
may contribute to developing awareness that could result in gaining 
information from unlikely sources.
    3-Outside the intelligence community, work together internationally 
on common, difficult problems in biology; leads to understanding, 
transparency and even trust that cannot be achieved through other means 
(See ``Biological Science and Biotechnology in Russia: Controlling 
Disease and Enhancing Security'' <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b2a2b5b">[email&#160;protected]</a> www.nap.edu). Chronic and emerging 
disease will be with us when the last bioterrorist retires. Working 
with colleagues to fight natural disease brings us into contact with 
biological activities and builds our network of trusted contacts around 
the world. Even in countries which are known to pose a threat to our 
biological security, more scientists and clinicians share our goals 
regarding health than share the goals of the would-be bioterrorist 
regarding the abuse of biology.
    4-Understand that the intelligence community is just one of the 
tools we have to protect our citizens from those who would harm them. 
We must, obviously, conduct classified defense and intelligence 
programs to help protect us from threat states or groups and we must 
deal from a position of strength in this very dangerous world. However, 
we must remember that in the new, smaller world, perception is an 
extremely powerful tool and the masses of non-terrorists out there can, 
indirectly, help us fight this war on terrorism, if they think 
positively of America. Therefore, we must not only allow, but encourage 
and support, public health and other programs that both improve human 
security but build understanding, some trust and some transparency 
between individual Americans and individual citizens of other nations. 
Walls around our nation, be they of chain-link or invisible, will not 
necessarily make us safer anymore.
    The Power of a Common Language: A reasonable analogy to the problem 
we face, in preparing an IC workforce to deal with a science as squishy 
as biology, is foreign language qualification for regional studies. The 
better my French, the richer will be my experience on a holiday in 
France and the more the French people will enjoy interacting with me. 
Science is a common language; the better my understanding of the 
technologies, the vocabulary and the idiom, the richer will be my 
experience ``talking science'' anywhere in the world and the more my 
colleagues will enjoy our time together. When scientists talk about 
science, intent often becomes better understood. . .and intent is the 
key to discovering those who would misuse biology.

    Mr. Linder. Thank you, Dr. Franz.
    Mr. Hopmeier?

    STATEMENT OF MICHAEL J. HOPMEIER, CHIEF, INNOVATIVE AND 
     UNCONVENTIONAL CONCEPTS, UNCONVENTIONAL CONCEPTS, INC.

    Mr. Hopmeier. Thank you, Chairman Linder, Ranking Member 
Langevin and committee members. I would like to thank you for 
this opportunity to discuss today an issue of paramount 
importance to our nation, the application and use of 
intelligence concepts and techniques to the biosciences, 
including medicine and biotechnology.
    As we have seen time and again, most recently when several 
problems have arisen, such as the anthrax incidents, the Chiron 
troubles of last year, and the anticipated difficulties of the 
H5N1 avian influenza pandemic now facing us, the need to 
anticipate events is tantamount to avoiding surprise and 
possibly disaster.
    To put my comments in context, I would like to provide you 
with a brief summary of my background. I am currently president 
of a policy and engineering consulting firm, Unconventional 
Concepts, Incorporated. For the last decade, I have been 
involved in a number of senior policy positions as a government 
employee and a consultant. These have included chairing a 
membership on several different science studies.
    I am currently special adviser to the United States surgeon 
general on homeland security and weapons of mass destruction; 
the senior science adviser to the deputy assistant secretary of 
defense for chemical and biological defense; and an adviser and 
consultant to numerous other agencies and organizations. 
Included in my written testimony is a fuller CV.
    Today, I will use the term ``intelligence'' in my 
discussions, and I think it is appropriate to define it. 
``Intelligence'' in this context is the product resulting from 
the collection, processing, integration, analysis, evaluation 
and interpretation of available information concerning the 
biosciences and factors affecting public health and medicine.
    I would like to note at this point, however, that even 
assuming that we were to fix or improve the intelligence 
process associated with the biosciences, we must also be able 
and willing to act on what intelligence provides us. While 
action based on intelligence is not the topic of today's 
testimony, please recognize that intelligence in and of itself 
is not a panacea. It is useless without the process, will and 
ability to act.
    To come right to the point, there exist fundamental 
differences between, on the one hand, the medical and 
biotechnology communities and the intelligence community on the 
other. The differences go far beyond mere changes in goals and 
methods, but are in fact cultural and societal. Each of the two 
groups have vastly different ways of looking at the world, how 
they collect information and make sense of it, how they protect 
it and share it, and how they determine what actions to take 
based on their analysis and understanding of the information 
they collect.
    These differences, however, are not mutually exclusive, but 
merely the result of different inclinations, training and time 
horizons. One key aspect of these differences deals with the 
fact that when we discuss intelligence, we are discussing a 
prospective technique, i.e. a part of the process that leads to 
predicting the future based on information concerning the past 
and the present. This is fundamentally different from most of 
the medical and public health communities wherein they deal 
primarily with the present in a response role. In the field of 
biotechnology, however, intelligence is most akin to what we 
see in the commercial world wherein we try to predict trends 
for guidance in business strategy.
    That being said, it is absolutely vital to the safety and 
welfare of our nation that at some level these differences be 
overcome. As I alluded to earlier, two recent failures we have 
had or face now, the Chiron debacle and the avian influenza 
panic, are in large part direct results of failures in medical 
and biotechnology intelligence. The anthrax incidents 
highlighted many deficiencies as well.
    I should note that while two of these cases, one dealing 
with biotechnology, Chiron, and one dealing with disease/
medicine, influenza, fall in the realm of naturally occurring 
events, the lessons and the failings are equally applicable to 
terrorism or deliberate acts as we saw with anthrax.
    I believe it is vital to recognize that there is no quick 
approach to improving the relationship between the intelligence 
and biosciences communities. We must change the mode of thought 
in the biosciences from observing what is to predicting what 
may be, and finally to how can we affect the future. The first 
step is intelligence in its broadest form.
    With this as a starting point, the question now becomes 
what should we do. I believe it is vital to increase both the 
overall awareness of intelligence and the mode of thought it 
offers among our medical, public health and biosciences 
communities. An excellent model is that presented by the 
Epidemiologic Intelligence Service.
    In the more extensive written testimony I have provided to 
the committee, you will find descriptions of a number of 
programs and agencies that touch on this important issue, as 
well as an outline for a program to leverage the capabilities 
of the Armed Forces Medical Intelligence Center, the CDC, and 
academia to create a cadre of trained, motivated and educated 
personnel who can raise awareness and knowledge throughout the 
bioscience community of intelligence and the role it can play.
    We can create trained observers with skills and 
capabilities that allow them to view problems, and the world 
around them in a new and critical way, one which will lead to 
new insights, and ultimately to the ability to prevent medical 
disasters and surprise, not merely respond to them.
    I would like to leave you with this final thought. The 
health and safety of our nation depends on our ability, not 
merely to respond to adversity, but to prepare for and 
hopefully to mitigate or prevent it. It has often been said 
with respect to disease that that which does not kill us makes 
us stronger. This, of course, is said by those who were made 
stronger, not those killed in the process.
    We must become stronger, but we must also minimize the 
number of those who will die as a result of our failure in 
predicting, and effectively responding to biological attacks 
and disasters. The only way to achieve this is through accurate 
and effective prediction and prevention of disaster. The means 
to achieve this is intelligence, leading to action and the 
adoption of biomedical institutions and protocols that 
strengthen this new paradigm.
    I am happy to answer any questions you may have. Thank you.
    [The statement of Mr. Hopmeier follows:]

                 Prepared Statement of Michael Hopmeier

                       Thursday, November 3, 2005

    Chairman Linder, Ranking Member Langevin and committee members, I 
would like to thank you for this opportunity to discuss today an issue 
of paramount importance to our nation, the application and use of 
intelligence concepts and techniques to the biosciences, including 
medicine and biotechnology. As we have seen time and time again, and 
most recently in several problems that have arisen, such as the anthrax 
incidents, the Chiron troubles of last year, and the anticipated 
difficulties of the H5N1 Avian influenza pandemic now facing us, the 
need to anticipate events is tantamount to avoiding surprise and 
possibly disaster.
    To put my comments in context, I would like to provide you a brief 
summary of my background. I am currently President of a policy and 
engineering consulting firm, Unconventional Concepts, Inc. For the last 
decade, I have been involved in a number of senior policy positions as 
a Special Government Employee and a consultant. These have included 
chairing or membership on several Defense Science Board studies. I am 
currently the Special Advisor to the US Surgeon General on WMD and 
Homeland Security, Senior Science Advisor to the Deputy Assistant to 
the Secretary of Defense for Chemical and Biological Defense and an 
advisor or consultant to numerous other agencies and organizations. 
Included in my written testimony is a fuller CV for further details.
    I will use the term ``intelligence'' in my discussions this 
morning, and I think it is appropriate to define it. Intelligence, in 
the context of my discussion, is the product resulting from the 
collection, processing, integration, analysis, evaluation, and 
interpretation of available information concerning the biosciences, and 
factors affecting public health and medicine.
    I would like to note at this point, however, that even assuming 
that we were to ``fix'' and improve the intelligence process associated 
with the biosciences, we must also be able, and willing, to act on what 
intelligence provides us. While action based on intelligence is not the 
topic of today's testimony, please recognize that intelligence, in and 
of itself, is not a panacea; it is useless without the process, will 
and ability to act.
    To come right to the point, there exist fundamental differences 
between, on the one hand, the medical and biotech communities, and the 
intelligence community on the other. The differences go far beyond mere 
changes in goals and methods, and are in fact cultural and societal. 
Each of the two groups have vastly different ways of looking at the 
world, how they collect information and make sense of it, how they 
protect it and share it, and how they determine what actions to take 
based on their analysis and understanding of the information they 
collect. These differences, however, are not mutually exclusive, but 
merely the result of different inclinations, training and time 
horizons.
    One key aspect of these differences deals with the fact that, when 
we discuss ``intelligence'' we are discussing a prospective technique, 
i.e. a part of the process that leads to predicting the future based on 
information concerning the past and the present. This is fundamentally 
different from most of the medical and public health communities 
wherein they deal primarily with the present in a response role. In the 
field of biotechnology, however, intelligence is most akin to what we 
see in the commercial world wherein we try to predict trends for 
guidance in business strategy.
    That being said, it is absolutely vital to the safety and welfare 
of our nation that, at some level, these differences be overcome. As I 
alluded to earlier, two recent failures we have had or face now, the 
Chiron debacle and the Avian Influenza panic, are in large part direct 
results of failures in medical and biotechnology intelligence. The 
anthrax incidents highlighted many deficiencies as well.
    I should note that, while two of these cases, one dealing with 
biotechnology (Chiron) and one dealing with disease/medicine 
(influenza) fall in the realm of naturally occurring events, the 
lessons, and the failings, are equally applicable to terrorism or 
deliberate acts as we saw with anthrax.
    I believe it is vital to recognize that there is no quick approach 
to improving the relationship between the intelligence and the 
biosciences communities. We must change the mode of thought in the 
biosciences from observing what is to predicting what may be and 
finally to how can we affect the future. The first step is intelligence 
in its broadest form.
    With this as a starting point, the question now becomes ``what 
should we do?'' I believe that it is vital to increase both the overall 
awareness of intelligence, and the mode of thought it offers among our 
medical, public health and biosciences communities. An excellent model 
is that presented by the Epidemiologic Intelligence Service. In the 
more extensive written testimony I have provided to the Committee, you 
will find descriptions of a number of programs and agencies that touch 
on this important issue, as well as an outline for a program to 
leverage the capabilities of the Armed Forces Medical Intelligence 
Center, the CDC and academia to create a cadre of trained, motivated 
and educated personnel who can raise awareness and knowledge throughout 
the bioscience community of intelligence and the role it can play. We 
can create trained observers with skills and capabilities that allow 
them to view problems, and the world around them, in a new and critical 
way, one which will lead to new insights, and ultimately to the ability 
to prevent medical disasters and surprise, not merely respond to them.
    I would like to leave you with this final thought. The health and 
safety of our nation depends on our ability, not merely to respond to 
adversity, but to prepare for, and hopefully mitigate or prevent it. It 
has often been said with respect to disease that that which does not 
kill us makes us stronger; this, of course, is said by those who were 
made stronger, not those killed in the process. We must become 
stronger, but we must also minimize the number of those who will die as 
a result of our failure in predicting, and effectively responding to 
biological attacks and disasters. The only way to achieve this is 
through accurate and effective prediction, and prevention, of disaster. 
The means to achieve this is intelligence, leading to action, and the 
adoption of biomedical institutions and protocols that strengthen this 
new paradigm.
    I am happy to answer any questions you may have.

    Mr. Linder. Thank you all. You give us a lot to think 
about.
    You each have said that we must have more intelligence to 
anticipate and hopefully prevent an activity. We are spending 
about $1 out of $8 on homeland security, taking things away 
from people on airplanes. We spend $4.2 billion taking things 
away from you. We spend less than $700 million a year on 
intelligence.
    Can the current intelligence community subsume this role? 
Dr. Relman?
    Dr. Relman. I believe it has the pieces and certainly the 
will to do so. I do not think it has the resources to do so. I 
think what they desperately need is a more robust fundamental 
scientific expertise base, as well as much more productive 
relationships with the outside scientific community.
    Mr. Linder. Should that community be separate from the 
current intelligence agencies, a stand-alone bio intelligence 
community?
    Dr. Relman. I think they can be in both places 
simultaneously, enhanced within and supplemented by accessory 
without.
    Mr. Linder. The biological community is an academic 
community, which instinctively is wide open. The intelligence 
community is a closed community. How do we get them to work 
together?
    Dr. Relman. It is extremely difficult, and a good question. 
It alludes to the cultural differences that Michael Hopmeier 
described. I think in many ways the two are beginning to see 
the needs and realities of the other. For example, I think that 
there is now a slow change in the thinking of the academic 
community in that we recognize there to be problems that must 
be looked at with a different perspective, and an imperative, a 
need to do so.
    Likewise, I think the intelligence community is beginning 
to see that in contrast to every other kind of threat they 
faced in past decades, this is one which today is large, 
tomorrow will be larger, and is inherently open. And they now 
realize that they, too, need to be in fact engaged out in the 
open-source world, in biology, but they are not there yet.
    Mr. Linder. I had the director of the CIA down at Atlanta 
at the CDC last Friday. He would agree with you.
    Dr. Franz, how do you determine intent?
    Mr. Franz. It is very, very tough. As I said, it is the 
core of the problem. My experiences both in Russia with the 
trilaterals and in Iraq with UNSCOM demonstrated it is very 
difficult to measure intent.
    My subsequent experiences working in Russia with the 
Cooperative Threat Reduction Program, where scientists and 
clinicians worked together on difficult common problems 
demonstrated to me that that kind of an approach may be as good 
as it is going to get.
    We can tear down walls and build this sort of culture of a 
little more openness if we are working together on these common 
problems. So I really like that approach. From my own 
perspective, I have learned more about intent that way than 
across a negotiating table.
    Mr. Linder. Mr. Hopmeier, are there enough analysts in the 
world to do this job?
    Mr. Hopmeier. Yes and no. I believe that there are a large 
number of analysts available. I believe the significant 
deficiency we have is that they are not sufficiently trained or 
focused. As I alluded to in my remarks, there is a cultural 
difference between the two communities, the intelligence and 
the biosciences/biomedical community.
    It is my opinion that I think we would find it much more 
effective and practical to try and train portions of the 
medical and biosciences community in aspects of intelligence, 
critical thinking, collection of information and analysis.
    And equally, if not more important, provide them an avenue 
and a vehicle to make that information available to those who 
can make use of it, interpret it, and take action, than it is 
to try and either create a whole new arm or capability or 
solely create that within the intelligence community, and try 
and train them in the biosciences.
    One of the specific aspects, as Dr. Relman and Dr. Franz 
have both noted, the biosciences community is a community. It 
is not a simple matter of blessing someone in the intelligence 
community and saying, you are now the czar of biosciences 
intelligence. You have to have people who have made contacts, 
worked in the community, understand the field, the discussions, 
can act one-on-one and be viewed as a peer to be able to be 
accepted. Otherwise, they will forever be on the outside of 
that.
    I believe the answer is somewhere between the two extremes 
of converting spies to medical personnel and converting doctors 
into spies, but instead being able to train the medical 
community in intelligence, but also training the intelligence 
community into how to absorb and make use of information that 
comes out of the medical and biosciences community.
    Mr. Linder. If we did try to educate the spies in medical, 
what would you ask them to look for, since almost any agent 
they could use is dual-purpose?
    Mr. Hopmeier. I think the question really becomes when we 
talk about intelligence, how broadly are we defining it? I 
believe that we may be mixing two broad, but yet related terms. 
In one case, intelligence with the biosciences can be 
considered the environment, the pathogens that may spread 
through it, the way that they in fact can move through the 
community, which includes both natural and manmade diseases and 
pathogens.
    There is a completely separate, yet related, category of 
the technologies, pharmaceuticals, diagnostics, ability to 
manufacture and distribute vaccines, our ability to put in 
place plans. Ultimately, I think that when we look at 
intelligence and we create the models and the infrastructure, 
it needs to actually be independent of either intentional 
release or naturally occurring epidemics. Both of them will 
have significant impact, and frankly on our ability to respond. 
To plan and predict their spread, develop counter-measures for 
them, apply them, and protect our society should be independent 
of the cause for the simple reason that in many cases, we may 
not know the cause at all.
    I will remind you of well over a decade ago Legionnaire's 
disease. If we created the stereotypical perfect example of a 
terrorist-release of an agent, Legionnaire's disease was it, an 
unknown agent occurring in a very narrow period of time, 
affecting a very small and targeted population that occurred 
very rapidly and with very little ability to trace it. That was 
a completely natural event.
    I will give you a counter-example, the Rashneeshi cult, 
also a long time ago, many years ago. In that case, what we 
thought was a completely natural outbreak, we found out a year 
or more later was in fact intentional. If we focus on trying to 
determine intent, it only really addresses one small aspect of 
the problem that we have to deal with, and the ultimate goal is 
protecting our society, our people. That is independent of 
intent.
    Mr. Linder. Thank you. My time has expired.
    Mr. Langevin?
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Hopmeier, I would like to actually continue on with the 
question that the chairman raised. You have may have already 
addressed this, but I would like to explore this a little more. 
You recommend again that we train medical personnel in 
intelligence and analysis. Are you suggesting that training 
intelligence personnel in medical and biosciences be equally 
effective?
    You also discussed in some of your background materials the 
idea of putting doctors trained in intelligence at all U.S. 
embassies overseas. Can you elaborate on the benefit of such a 
plan?
    I welcome the other witnesses to comment as well.
    Mr. Hopmeier. My pleasure.
    First, let me note, there is a document that I provided to 
the staff, it is not available for public dissemination, I am 
afraid. It is a document from the Armed Forces Medical 
Intelligence Center titled ``Medical Intelligence Tutorial.'' 
That document is specifically designed to train medical 
personnel on what is intelligence, how to collect data and 
information, and how to analyze it.
    One of the most effective means our government has found in 
being able to collect and understand data, not only on emerging 
diseases, but also on endemic capabilities in different 
nations, are the different overseas labs that our Department of 
Defense maintains. We have labs throughout the world in a 
number of different areas, including Bangkok, Egypt and other 
regions, which were originally developed primarily to try and 
understand the diseases in those regions and how they affect 
military personnel.
    One of the anticipated, but very valuable consequences of 
having those labs distributed in many regions of the world was 
the relationship that those researchers had developed with the 
local public health communities, local academic and industrial 
infrastructure. Dr. Franz can certainly address that much 
better. He ran many of those laboratories when he was in the 
military.
    But I think the key benefit that came out was not just the 
short-term knowledge of what diseases were endemic in any given 
region, but more importantly the longer-term relationships that 
have been developed between our government, the Department of 
Defense and the research laboratories, and the local public 
health communities, their militaries, the health officers and 
personnel in those militaries, and the public personnel.
    Ultimately again, we need to decide what is the best use of 
scarce resources. One of my recommendations, as you noted, was 
use of the embassies throughout the world to provide medical 
and public health advice, but more importantly interaction and 
expand the community of interaction worldwide, and not depend 
solely or almost solely on the World Health Organization and 
its other bodies, but be able to actively and aggressively 
reach out to these other communities through information 
sharing, identification of, in general, very open-source and 
public knowledge, but most importantly having a structure to be 
able to bring that back to those who can take action on it and 
make decisions based on it.
    Mr. Langevin. Would either of the other witnesses care to 
comment?
    Mr. Franz. I would just add that the point that Michael 
makes about relationships and longstanding relationships and 
building trust is so important, and that happens easily in the 
medical and the scientific communities. There are a number of 
instances in history where because of lack of communication, 
our imaginations or our adversary's imaginations take over and 
they actually think better than we do, and they were doing 
things that we were not really doing, and so on.
    I think that can lead or be a component in a cycle of 
proliferation. I believe that because the threats of 
bioterrorism and the technologies related to bioterrorism are 
so grossly overlaid with those tools and human resources that 
are related to emerging disease and to panic disease, this is a 
real opportunity. I think we have to be a little bit careful in 
making doctors spies, because we are going to undermine the 
real role and undermine the relationships and the understanding 
and the building that goes on.
    Secondly, the point I would make in the same context is 
that we sometimes I think within our intelligence community 
think about we are collectors of secrets. That may work in some 
technologies where we have this secret and this secret and this 
secret. The biological community is so complex that I think it 
is critical that we have an infrastructure or a framework on 
which to hang those occasional secret dots that we do have in 
order to connect the dots and bring them into context.
    So I think that is another reason for the importance of 
this broad understanding within our intelligence community and 
a close relationship between the intelligence community and the 
biological community.
    Dr. Relman. I would simply answer your question with a 
general question, which is what are the kinds of things we 
would like to observe in order to be able to anticipate 
biological threats that we face.
    I would answer that by saying there are two kinds of things 
we would like to observe. One is the activities, the ongoing 
activities and behavior of those engaged in the life sciences, 
as well as the natural state of affairs in the natural world. 
We would like to, for example, in the latter, understand what 
is the diversity of naturally occurring organisms, both 
pathogens and beneficial organisms, in order to anticipate what 
might arise or what one might be able to do with those 
organisms.
    Likewise, we would like to be able to know what are the 
normal kinds of activities that scientists engage in around the 
world? Because in both cases, what we are then looking for are 
aberrations. I think this was a question asked earlier. How do 
you recognize deliberate from natural? In both cases, you are 
looking for aberrations from the natural state. Until you 
understand this background, we cannot identify an aberration.
    I think the way to do both, again, is to simply be out in 
those worlds talking with, getting to know, observing 
activities of people around the globe, as well as observing 
nature around the globe. I know that CDC, for example, has 
talked about deploying their epidemiologists to understand what 
is the natural background of the microbiological organisms of 
the planet.
    Mr. Langevin. Thank you.
    Mr. Linder. The gentleman from Connecticut is recognized.
    Mr. Simmons. Thank you, Mr. Chairman, and thanks to the 
ranking member for sponsoring this very interesting and very 
significant discussion.
    I want to refer to the staff document page four where they 
quote the Silberman-Robb report as follows: ``The gap in 
collection on the biological threat is largely attributable to 
the fact that the community,'' that is the intelligence 
community, ``is simply not well-configured to monitor the large 
stream of information, much of it publicly available, relevant 
to biological weapons.''
    Page two, from Dr. Hopmeier, ``To come right to the point, 
there exists a fundamental difference between on the one hand 
the medical and biotech communities and the intelligence 
community on the other hand.''
    Mr. Hopmeier. Absolutely.
    Mr. Simmons. To quote from Mr. Franz, ``Intelligence is 
about sensitive or classified information. It is not about 
sharing and not about getting credit for one's analysis and 
thought. Openness is not advocated,'' et cetera, et cetera.
    And then, Mr. Relman, you refer to the open-source world.
    I worked for the CIA for 10 years as an operations officer, 
covert agent. I spent 35 years as a military intelligence 
officer. I just think we are barking up the wrong tree here. I 
do not think the intelligence community is capable of taking on 
this task.
    I remind everybody that the Robb-Silberman report 
recommended an open-source intelligence agency, an open-source 
agency, an organization focusing on open sources, which they 
placed in the CIA. I would not place it in the CIA. I would put 
it in the Department of Homeland Security because I think it 
lends itself absolutely to the mission of the Department of 
Homeland Security.
    When I go visit Pfizer in my district, their R&D center in 
Groton, several hundred million dollars of investment in R&D, 
and they tell me that advances in bioscience, for example 
treating diabetes with inhalants, as opposed to injections, but 
that that science and the development of that science, which is 
shared around the world, has tremendous applications for 
bioterrorism and bio-warfare.
    I wonder why we are not simply stepping back and saying, 
look, scientists do not want to be spies. They really don't. If 
they did, they would have joined the CIA. They do not want to 
be spies, but they do want to protect their nation. They do 
want to protect their families. They do want to make their kind 
of contribution to the national security.
    So why is it that we continue to try to get the 
intelligence community to do what it does not want to do? Why 
don't we step back and say it is time to develop a new 
organization which is going to be congenial to scientists, 
because it will not be a spy organization, which will 
contribute to the national security, which will use open 
sources of information for their analysis, and which will 
really be pertinent to the problem? Why don't we do that?
    We have three very smart people. I would be happy to have 
it out.
    Mr. Hopmeier. I will take a shot at it, to begin with.
    I believe first, sir, it is the idea that we are trying to 
create, make doctors into spies or more broadly the context, an 
analyst as a spy. I might point out that any reasonably 
competent industry analyst or stock analyst, especially in the 
biotechnology field, can probably answer 90 percent of the 
questions and issues that we all have on our mind today. What 
is the ability of industry to make vaccines? How quickly can 
they ramp up? What are the inherent problems in producing those 
vaccines and distributing them?
    There is an enormous industry-base today built solely 
around the business of collecting open source information on 
different fields, very specifically the biosciences, analyzing, 
interpreting and making predictions. Their purpose, frankly, is 
not national security. They certainly have an interest in 
protecting our nation, but their purpose more is they have 
many, many hundreds of billions of dollars to invest and the 
decisions that they make is to the effectiveness of industry. 
The ability to produce drugs is going to affect the investment 
portfolios of their customers.
    I work with several of those companies. One that I am 
familiar with, for example, a company called Gerson Lehrman has 
nearly 160,000 medical and other technical professionals around 
the world that they ask questions to, funnel the information, 
and come up with conclusions, different conclusions that you 
gentlemen need, but the process is there and has been 
demonstrated. There is a large industrial base that has proven 
that possibility. I can tell you they certainly do not consider 
themselves spies, most of them, some may want to be. But for 
the most part, they do in fact do intelligence collection, 
analysis, and just simply based on the effectiveness of their 
portfolios, seem to be very effective.
    Mr. Franz. I would add that what you describe is my 
experience as well, in dealing with the intelligence community 
as a customer during my time at the Army's Institute of 
Infectious Diseases, where we developed medical counter-
measures.
    What I see is that it is very, very difficult to retain 
good people in the culture, in which they are asked often to 
read what looked like historical information, historical 
intelligence, not actual intelligence, and try to commingle 
that with the open literature if they had time, and then sort 
of dumb it down for the decision-makers. That is just not a fun 
job for a bright young scientist. So I see them occasionally 
hiring good people, but they quickly lose them.
    I think your approach with regard to the open approach to 
looking at the open literature is probably more effective. Dr. 
Relman mentioned the DIA Red Team. Our experience there I think 
has been very positive, where it is for the most part open 
communication between scientists and members of the 
intelligence community. I think they appreciate it a great 
deal. They learn a lot and we learn a lot in the process.
    Finally, I would just add that in conjunction with your, or 
sort of in parallel with your thoughts, I think exploiting or 
taking advantage and using the private sector is something that 
we could do in that kind of a system. We could encourage, 
rather than discourage international communication and 
transportation and working together. We could also probably 
sensitize that community to help us in the intelligence 
community to just better understand what is going on out there. 
Not secrets, not classified things, just what is going on for 
example that you mentioned at Pfizer and others, where new and 
cutting-edge technologies are being used.
    And then finally, I think also in accordance with your 
point, we need to understand that intelligence is just one of 
our tools in this process. It is an important one, but 
especially in the field of biology, I think it is just one 
wedge in our tool set.
    Dr. Relman. I would echo and agree with many of the 
comments of my colleagues. I keep finding myself almost a 
hopeless optimist about what might be doable. It is based in 
part upon some good experiences with members of the 
intelligence community. I truly believe there are individuals 
buried within those agencies who truly understand what really 
is needed and the kinds of relationships that need to be 
created, and have tried their hardest to do so. I would hate to 
see them pushed aside or in any way marginalized.
    But you are absolutely right. The nature of this problem is 
so immense that I do not believe any self-sustaining, self-
sufficient agency or group can undertake what really is needed.
    Just to put this in a different kind of context, I think 
one of the most likely threats we face in the next 10 years or 
15 years is not necessarily the actions of a person hell-bent 
on doing harm. It is the inadvertent, irresponsible actions of 
someone who was tinkering in biology. It is the next-generation 
bio-hacker.
    There are so many--I say this with some humility--there are 
so many kids out there who are so good at biological 
engineering because of kits, because of technologies. There are 
going to be people who are going to simply try doing 
interesting things for the fun of it.
    That is where my concern is. How do you deal with that? You 
need the entire community so sensitized that they recognize 
when untoward or irresponsible behavior is taking place and 
know what to do about their sense of this, to which they should 
speak.
    So given the nature of that problem, there is no one agency 
that is going to be able to place bounds on and take 
responsibility for this. There have to be bridges built. We 
have to take advantage of those individuals that are now in a 
variety of agencies who truly believe in this approach, and 
empower them, and knock down these walls, make all of these 
organizations and agencies talk together. Maybe it should be 
unified under one administrative entity, and Homeland Security 
might be a very good place for it, but it will have to be an 
integrative, expansive effort, not a single contained one.
    Mr. Hopmeier. Gentlemen, could I add one other comment 
please?
    I think that it is telling to realize that if we went back 
65 years ago, we could be sitting around having this discussion 
concerning physics and nuclear engineering. If we went back 20 
or 25 years ago, we could be having the same discussion 
concerning computer science and the Internet. We have a new 
field that is evolving and developing. The intelligence 
community and the rest of our government adapted to the threat 
of nuclear war. It adapted to the vulnerabilities of the 
Internet and computer sciences have created. And today we are 
on the eve of biosciences. We may solve this problem today, but 
in 10 or 15 or 20 years, there may be another problem that we 
are sitting to deal with.
    So I think it is instructive to note the technological 
surprise, changes, space, nuclear science, biology. All of 
these will continue to come up and we will have to address all 
of them in some way.
    Mr. Linder. The time of the gentleman is up.
    The gentleman from Washington?
    Mr. Dicks. The only thing I would say is, I served for 8 
years on the Intelligence Committee. I can see certain 
circumstances when if you have like the Soviet Union, with a 
massive program, that you would have to have intelligence about 
that, especially since that program was kept in secret. Let's 
say a future adversary, maybe the future adversary might have a 
program that would require us to have intelligence on that 
program. I would think it would be helpful to have people with 
some scientific background in order to look into this.
    Now, if I could just switch and go to what we have now, and 
get your comments a little bit on some of these entities. One 
is the Armed Forces Medical Intelligence Center, headquartered 
at Fort Detrick as a branch of the Defense DIA, and has the 
mission to provide all sorts of intelligence on foreign 
infectious diseases and environmental health risks, foreign 
military and civilian health care systems and infrastructures, 
and foreign biomedical development and life-science 
technologies of military-medical significance to the U.S. armed 
forces.
    How would you rate that organization? Is this the one you 
have been talking about?
    Mr. Hopmeier. Yes, sir.
    First, I think you need to realize AFMIC I happen to 
consider is a very good organization. They have a long and 
distinguished history, but their focus is exclusively on those 
issues related to the military.
    Mr. Dicks. Right.
    Mr. Hopmeier. So they have the infrastructure and the 
capability, but they are funded, resourced and focused on 
issues directly of military importance and relevance. As a 
model and as a source of process for other entities and 
organizations, I think that they would be excellent.
    If what you are asking is could they undertake this role 
for the broader homeland security mission, I do not believe so 
for two reasons. One, it would take a significant investment to 
expand and increase them to have that capability, more so 
perhaps than creating a new entity. Two, and more importantly, 
I am afraid it would unacceptably dilute their mission and 
their focus on protecting the military.
    Mr. Dicks. But it is a model of an agency that has this 
mission of looking at these kinds of issues, both from a 
scientific and from an intelligence perspective. Isn't that 
correct?
    Mr. Hopmeier. Absolutely.
    Mr. Dicks. Let me just move on. The Epidemic Intelligence 
Service, which is located at CDC headquarters in Atlanta, how 
would you rate that program? Any comments on that?
    Dr. Relman. They are an outstanding group with, again, a 
somewhat different mission. Their mission is to describe and 
explain natural events of infectious origin and to understand 
the epidemiology of the world of infectious agents around the 
globe. They focus, of course, on the United States. They have 
excellent skill sets in understanding patterns and recognizing 
perturbed or aberrant patterns.
    But their expertise is not, for example, in technology, in 
the future of the biological sciences and their impact on what 
might be now advanced or reengineered threats.
    Mr. Dicks. If you were going to create a new entity at the 
Department of Homeland Security, what would you want it to be 
like? What kind of capabilities would you like it to have?
    Dr. Relman. Again, I think it depends upon its mission. If 
it is to anticipate this enormous spectrum of potential 
threats--
    Mr. Dicks. Right.
    Dr. Relman. --it must have several features.
    It must understand how we go about describing and 
understanding the natural world. So it would have to be 
epidemiologists of the CDC sort. It would have to understand 
the scientific basis for how we understand these entities. It 
would have to include academic and private sector scientists. 
And it would have to understand how to anticipate trajectories 
in technologies in sciences 10 or 15 years out. That, too, 
would include a wide variety of people with different expertise 
and disciplines from a variety of sectors. It is really a 
compilation of many kinds of agencies.
    Mr. Dicks. And it would have to be able to relate, I 
assume, to the CDC, to the World Health Organization, to NIH, 
to all these entities that are out there following these issues 
on a day-by-day basis. I agree there with the gentleman that 
ought to be in the open, I think, and I think you could get a 
lot of information, just like we have been following the avian 
flu and watched what happened with SARS. It was not handled 
properly by the PRC.
    It just seems to me that we this ought to be done at the 
Department of Homeland Security, and have it work with these 
agencies. It would develop and evolve, but it would be able to 
work with all these other existing entities, and that would be 
a great way to start, if we were going to do something.
    Dr. Relman. If I could just interject, there is, of course, 
as you I am sure know, the Biological Threat Characterization 
Center as part of DHS. They have part of that as their mission, 
but in my humble opinion, it is a limited effort. It is a very 
limited and narrow effort right now.
    Mr. Dicks. Dr. Franz or anyone else like to comment on 
this?
    Mr. Franz. I would agree. These areas are so overlapping.
    I often define ``biological terrorism'' as emerging 
infectious disease plus intent. Everything that David has said 
and that you have said I think is right on-target. We have go 
to integrate all this. Back in the mid-1990s or so, AFMIC, 
before it went to DIA, covered both the natural threats, which 
I think is its focus today, as well as the bio-warfare threats. 
We were not thinking about terrorism. I think that was very 
useful to have that kind of an integrated agency.
    Today, the bio-warfare has sort of moved to DIA, and AFMIC 
has retained its mission primarily of looking at natural 
threats, and again to the force, as Michael said. So I think we 
need to, rather than separate, we need to integrate in all of 
these areas to bring the science and the intelligence, where 
possible, together.
    Mr. Dicks. We have done these counter-terrorism centers, 
counter-proliferation centers. I could see a center on this 
issue that would be kind of the repository for all the efforts 
that are going on in the government. They would pull it all 
together in this center at DHS. It seems to me that would be a 
very logical thing to do.
    Mr. Hopmeier. I would agree, with one addition, sir. AFMIC, 
unlike many of the other research centers, not only is able to 
collect and analyze data, but its output. Ultimately what comes 
out of a center, an agency has over many years evolved to 
actually be something useful, or what we would refer to as 
actionable. When AFMIC collects data, one of the things that 
comes out is information, reports, documents that a battlefield 
commander up through the Secretary of Defense or the President 
himself, if necessary, can look at, interpret and take an 
action on.
    Part of the problem in the biosciences is I do not think 
that in the civilian community we have evolved to that point. 
If we take a look at the expedition of the current pandemic flu 
plan, it is a wonderful policy. It has vague guidelines, some 
specific data, but it is not something that a community, a 
police force, a different government agency can actually take 
specific action on.
    So I would extend your observation to be that not only do 
we have to analyze and collect intelligence, we have to be able 
to produce something that is actionable and of value other than 
as an interesting academic exercise.
    Mr. Dicks. To the first responders around the country?
    Mr. Hopmeier. At all levels. The first responders 
absolutely, but it may be CDC or HHS. DHS attempted with its 15 
scenarios to prevent a baseline for planning at all levels of 
the government, whether you agree or disagree is immaterial.
    But they provided a set of basic scenarios and threats to 
plan to, all the way from the very lowest to the highest level. 
If we embark on an area of doing intelligence for the 
biosciences, I think we have to keep firmly in mind what the 
goal is. The goal is to be able to do something with that data.
    Mr. Dicks. Thank you.
    Mr. Linder. We will have another round, too.
    Dr. Franz, does each American embassy have a medical 
officer?
    Mr. Franz. I do not know.
    Mr. Hopmeier. There is a medical person. However, it is not 
frequently a physician. In many cases, I believe they actually 
use the indigenous personnel. They hire out to local personnel.
    Mr. Linder. Since each embassy has a lot of employees, many 
of whom are hired locally, and they are in the community at all 
times, if we focused on the medical personnel in the embassy to 
focus on open source information, would that be helpful?
    Mr. Franz. I think it probably would to some degree. That 
would be part of the solution. I do not think it would be a 
really comprehensive solution because of the nature of the 
work. At least in the one embassy that I have been closely 
involved with, the medical person probably would not know as 
much about what is going on in that country as we might hope, 
certainly not as much as scientists or public health 
individuals who are collaborating with the population of that 
country. But it certainly could be a piece of the puzzle.
    Mr. Linder. The director of the CDC tells me that she has 
been approached by several international firms who are 
concerned about these kinds of natural outbreaks because of the 
cost to their employees and the cost to their bottom line.
    Would there be any interest, do you think, in approaching 
some of these people who have headquarters here, but who have 
thousands and thousands of employees in other countries? Could 
we train them to look for things, I guess is the question.
    Mr. Franz. I have been involved in other initiatives, or am 
involved in another initiatives related to multinational 
companies and trying to get them involved in sort of 
undermining the popular support for terrorism by being good 
citizens and so on in other countries. You use the right word. 
The bottom line is what is really important in persuading or in 
discussions with these groups.
    I think it depends a little bit on the culture of the 
specific organization you are going to. Some are much more 
interested than others. But that is part of this sort of loose, 
but very broad network that I am alluding to in my second point 
with regard to who we need to sensitive, who we need to work 
with. Integration is the key. We have to got to pull it all 
together.
    Dr. Relman. There is an interesting initiative by Terence 
Taylor from the International Institute for Strategic Studies. 
He and his colleagues, he is based here in Washington as well 
as London, have been trying to get together groups of CEOs from 
large multinational corporations and talk about ways of 
sensitizing their workers to issues of biological security.
    It has been I think very encouraging, the reception that he 
has had from a number of companies, not all, because they see 
it as part of their own self-interest to prevent something 
untoward from arising from their own collaborative activities 
or from their own people, as well as the consequences for their 
own people overseas. So I think that is, again, one piece of a 
network.
    Another kind of network is the public health distributed 
global network. I will give you an example. The French have a 
long history of investment in their Pasteur Institute. The 
Pasteur Institute has satellites around the globe. They have 
one in Tehran. They have one in Dakar, Senegal. At each of 
these places, they have longstanding working relationships with 
local scientists. If I wanted to know what was going on in 
Tehran today, the first place I would go would be the Pasteur 
Institute in Tehran.
    If we had that kind of satellite public health relationship 
with similar kinds of organizations around the globe, through 
our CDC for example, that would be immensely helpful.
    Mr. Linder. CDC is currently in 47 nations around the globe 
with very good relationships with the local health agencies.
    Dr. Relman, you referred two or three times now to state-
of-the-art technology in biosciences. Explain that to me.
    Dr. Relman. The state-of-the-art, of course, is a moving 
edge, but it is an interface between multiple disciplines. It 
is an evolving kind of science and technology that is 
discovery-oriented, unpredictable and highly dynamic. But that 
frontier changes the way in which science and technology are 
executed, and it changes the way we think about the potential 
future threats. It is hard to operate at that frontier, at that 
edge, unless you are out there talking constantly with your 
colleagues and thinking about the thoughts that they have 
shared with you.
    Mr. Linder. Dr. Franz, would it be in our interest to 
follow some of these scientists who are very, very well trained 
in life science, microbiology or genetic engineering, who are 
trained in London and then moved to Pakistan? Would it be in 
our interest to know where these people were, or are there too 
many of them to know who they are?
    Mr. Franz. The best example I am familiar with with regard 
to attempting to do that was the focus of the Nunn-Lugar 
Program in the former Soviet Union. I think it was very 
difficult to track individual scientists, at least down beyond 
a certain level.
    One of my concerns related to that today is that if you go 
to any university in the U.S. and talk to the registrar or to 
the dean of the graduate school, you will find that we are not 
training as many people from overseas as we used to. They are 
now going to France or to Germany or other places.
    I think that we are losing an opportunity there. Certainly, 
we have to be careful who we let into the country and so on, 
but I think in biology the situation is such that barbed wire 
fences and even paper fences that we put up do not always make 
us safer. So I think following scientists or working with 
scientists is, as you suggested, very important.
    I am going to leave with the staff a recent report. It is 
actually just a pre-publication copy. I chair a standing 
committee at the National Academy on our scientific 
relationships with the former weapons programs of the Soviet 
Union, Biopreparat in the Ministry of Defense, which we are not 
in, but we are in Biopreparat and all over that.
    I have come to a point of believing that, I call it bio-
warfare in our rearview mirror. I think we need to be looking 
forward to ways of collaborating in disease surveillance, 
international disease surveillance, bringing their programs 
into the world community, reporting to the WHO; technologies, 
working together on technologies; working together on public 
health and infectious diseases. That is essentially the essence 
of this report, which is entitled Biological Science and 
Biotechnology in Russia: Controlling Disease and Enhancing 
Security.
    I think as we have moved in that direction, I have seen a 
lot more openness. Now, it does not make us totally safe and it 
does not mean there is not a program within the MOD, but I 
think that I have seen a lot more openness as we have worked 
together on these common problems.
    Mr. Linder. Thank you.
    The gentleman from Rhode Island?
    Mr. Langevin. Thank you, Mr. Chairman.
    Your testimony today has been fascinating. I appreciate 
what you had to say.
    I want to back to Dr. Hopmeier, if I could. You mentioned 
that you feel that the failure of the Chiron Company to provide 
flu vaccine last winter and now the avian influenza situation 
are examples of intelligence failings. With respect to avian 
flu, certain countries were not exactly forthcoming with 
information.
    Can you elaborate on this as an intelligence failing and 
how would intelligence have helped weather the Chiron 
situation, in particular, or aid us in dealing with avian flu 
and influenza issues now?
    The other thing I will ask, on Tuesday the President 
announced his plan to combat the avian flu epidemic. One part 
of the plan was to enhance bio-surveillance, meaning worldwide 
epidemiology and providing detection in as near real-time as 
possible.
    I will ask each of you, while everyone agrees it is a good 
idea, I am interested in how long it is actually going to take 
to build that worldwide bio-surveillance capacity.
    Mr. Hopmeier. To address your first question, the Chiron 
and the avian flu are examples of the two widely disparate 
applications of intelligence I mentioned earlier. In Chiron, it 
was a biosciences, a technology failing and problem.
    To take an analogy, if we have a dependence on a key 
material, cobalt, for example, or oil, we would regularly and 
consistently track not only all of the producers and 
manufacturers and refiners of oil, as one example, but the 
sources of key materials, parts, trained personnel, whether 
they are following the plans and procedures one would expect 
for regular maintenance and ongoing operations. We would know 
well in advance if a problem were developing with a key oil 
refinery.
    Mr. Shays. Could the gentleman just define what ``we'' 
means?
    Mr. Hopmeier. I am sorry; forgive me. The general 
community, the national security community, including the 
intelligence community.
    If I were following a strategic material, for example, I 
would specifically look in oil to the Department of Energy and 
their tracking of key refineries and key sources of material; 
for another like chromium or cobalt, it would be one aspect of 
the intelligence community or the Department of Defense, if 
they have the key mission. I am using the broadest term of the 
U.S. government. I apologize for not being clear.
    I think that that derives from the recognition that there 
are key materials that are considered strategic assets or 
strategic materials. We have never looked at that. That seems 
in pharmaceuticals to be a strategic asset key to our national 
security, so the infrastructure that has traditionally gone 
with those does not exist and is not there. If it had been, 
there have since, in retrospect, been many signs and indicators 
associated with Chiron and its inability to meet its 
obligations last year that would have told us early. Seeing 
that would have been one part of it; being able to take action 
would have been another.
    In the case of the H5N1 or any other expanding strain of 
flu or pathogen for that matter throughout the world, 
surveillance, environmental monitoring, tracking of the changes 
of disease and disease patterns throughout the world give us 
early indications of potential problems of disease. We know 
that H5N1 has been known to exist for a number of years, 
``we,'' the academic community. We know roughly how it would be 
able to mutate. In fact, the current pandemic plan was under 
development for 5 or 6 years.
    It has suddenly taken a trigger for us to realize that we 
need to look back at the signs and indicators we had in the 
past and come to the conclusion that yes, there was a warning 
many years ago, but we did not have the process or the ability 
to be able to exploit and take action years in advance of the 
problem, so we are now forced back up against the wall to try 
and address the problem at the very last minute.
    I think that answers your key question, sir.
    Mr. Langevin. Yes, thank you.
    With respect to the timeframe, though, of developing a 
real-time bio-surveillance capacity. I would like each of you 
to step up.
    Mr. Franz. A couple of issues there. I am very interested 
in that approach I think it is necessary. There are a couple of 
barriers that I see.
    One is economic. If you recall in the early to mid-1990s, 
there was a plague outbreak in India. It was really hard to get 
information about that. It is not good advertising for tourism, 
for example, to advertise that you have a plague outbreak in 
your country.
    The other one is sort of cultural. I think there is a key 
point that I would like to make with regard to this worldwide 
disease surveillance program. I think it needs to be a disease 
surveillance program. The best example I can give is our 
experience from West Nile, where we had sort of a smokestack or 
a siloed system. Crows were dying in New York City in June of 
1999, I think it was, and humans were dying in New York City at 
the same time, but it took us until September to make a 
definitive diagnosis that it was West Nile, to some degree 
because we were looking for animal disease in crows and we were 
looking for human disease in humans, and it is very important 
to integrate that.
    I work with both the Ministry of Health in Russia and the 
Ministry of Agriculture and just spent some time with both 
ministries about 10 days ago. They have now learned their 
lesson, I believe, with regard to integrating and looking for 
disease, and not for animal disease here and human disease 
there. We had the wakeup call in 1999, but those are cultures 
that are in silos that are very hard to break down.
    It is a little bit like getting the intelligence community 
and the scientific community together. We need to get the ag 
community and the human disease community together and working 
very closely because about 75 percent of emerging diseases are 
zoonotic, that is diseases that are transmissible between 
humans and animals.
    Dr. Relman. Just a few additional comments about your 
question. I agree with everything that has been said. The two 
challenges, of course, are both environmental and medical. We 
would like to know, for instance in this case, what the viruses 
are that are out there and how they are evolving. We also would 
like to know what disease activity looks like and its cause.
    There is one additional technical barrier I will just bring 
to your attention. We are not very good at clinical 
microbiological diagnosis right now. We have a clinical 
definition of influenza or flu-like illness. It is very non-
specific. We can detect the influenza virus in a person 
certainly, but there is an attendant delay. It is not rapid. 
The ability to then sequence and understand the nature of the 
virus is even longer.
    I would suggest that to make the timeline a satisfactory 
timeline, we need to also put emphasis on early disease 
diagnosis. There are some technologies and science that would 
radically change the way in which we recognize early disease as 
due to X, Y, or Z. So I guess in answer to your question, 1 to 
2 years now for characterizing viruses in various sites, 
putting the political and economic issues aside. But for 
specific early clinical diagnosis, I think we are still 3 to 5 
years away at best.
    Mr. Hopmeier. If I could add one comment on surveillance. I 
think there is frequently a very fundamental misunderstanding 
of what is medical surveillance versus environmental 
surveillance and how they come together. You, I believe, 
referred to it as real-time worldwide surveillance.
    If I take a look at medical surveillance and the concept of 
real-time, is real-time determined from the point at which 
somebody is exposed to a disease, they become infected, sick, 
enter a laboratory, have a test done, have the result reported? 
Depending on the disease and your end-state of definition, that 
could be a difference of more than 2 weeks. We do not have a 
common understanding of terminology and what surveillance 
means.
    Further, and even more fundamentally, I believe 
surveillance is used as a panacea, as a silver bullet without a 
clear understanding of why we have it or what we are going to 
do with the information we get.
    An example I have used many times, set aside the technology 
question completely. Forget issues of privacy; forget how 
rapidly we can detect a piece of information. If I was able to 
do all of that perfectly in real-time, what does the 
information provide you? How do you plan on using that data? 
For the most part, surveillance has been very technology-
driven. We have a new capability to measure the sale of over-
the-counter drugs. Let's survey it and collect data. We have 
ICD-9 codes for syndromic surveillance. Let's collect all that 
data into one place or a number of emergency room beds.
    Very, very little thought has been given to why do we do 
surveillance, how will we use that information, and using those 
requirements to drive the evolution of the capability.
    Mr. Linder. The time of the gentleman has expired.
    The gentleman from Connecticut?
    Mr. Shays. Thank you.
    Mr. Simmons. Thank you, Mr. Chairman.
    [Laughter.]
    I do have a question about Plum Island, but because the 
distinguished vice chairman of the full committee has arrived, 
my colleague from Connecticut, I yield my 5 minutes to my 
colleague from Connecticut.
    Mr. Shays. I am blushing.
    First, to you, Mr. Chairman, I consider the work you have 
done, with your ranking member, outstanding.
    I have been involved in this issue a long time, with my 
National Security Subcommittee. I consider this committee, its 
task dealing with nuclear and biological, hugely important. The 
likelihood of such attack is small, but the consequence is 
almost beyond comprehension, if attacks happen.
    I want to side with what I believe my colleague from 
Connecticut has said, and that is that we need to know the 
private, basically, government data with the public data. If we 
do not, we are going to fail. I also think that he is headed in 
the direction of basically saying it comes out of the 
intelligence community, and should be somewhere with DHS, which 
then gets me to my interest in getting your view of the World 
Health Organization. I first want to say to you that I feel 
like it is an underutilized organization. I feel like it is 
underfunded. The folks that I meet there are incredibly 
intelligent and dedicated. They will literally go to the 
deepest parts of the world with an outbreak, not knowing what 
the consequence may be.
    So I would like you to speak more specifically as to how 
the World Health Organization plays a role in the intelligence-
gathering. Is that something that has already been discussed? 
Okay.
    Mr. Hopmeier. I have done a good deal of work, in fact I am 
a senior advisor with the Office of Deliberate Epidemics within 
the World Health Organization. That office was set up about 3 
years ago specifically to look at the issue of the changes, the 
differences that one would see in the issue of a deliberate 
epidemic, a bioterrorism or bio-warfare incident versus an 
actual outbreak.
    The key difference, frankly, had nothing to do with 
response so much as who was in charge. In the case of a 
naturally occurring epidemic of one sort of another, it would 
almost be purely ministries of health or the public health 
organizations. In the case of a deliberate incident, suddenly 
it takes on national security overtones and involves 
intelligence and law enforcement and such.
    The biggest problem within the WHO is again a cultural one. 
They are not used to thinking in those terms. They are an 
almost purely academic organization. I can speak from very 
personal and first-hand experience some of the difficulties we 
have had trying to get the management, Dr. Lee and the senior 
staff of ADGs there to understand and accept that this is a key 
issue.
    Mr. Shays. Let me just put affirmation on that. A few years 
ago, my staff and I went to the World Health Organization and 
requested a meeting to understand how they were dealing with 
pathogens that may be incentivized by humans, in other words, 
weapons. They did not know what I was talking about. So we 
specifically requested, we went below management and set up 
this meeting, and then we invited the head of the World Health 
Organization to sit in. He had all his parts there. It was 
stunning what the people down below knew and were thinking 
about, and it was just like he was in a foreign country. He was 
shocked to see this. We were pleased that at least down below 
they were thinking about it.
    Mr. Hopmeier. I have observed that very directly. I believe 
that there are some changes for the better. Do you gentleman 
know Dr. Ken Bernard? He used to be the senior medical adviser 
on the National Security Council. He has since retired and is 
currently a special adviser to Dr. Lee, the director general of 
WHO. That indicates to me that there is some interest at the 
highest level.
    Mr. Shays. Let me interrupt that. What do we do to, first 
off, is there a need? If you could just all three quickly. Is 
there a need to get the World Health Organization more engaged? 
The next question is, in the short answer, how do we do it, if 
the answer is yes? Is there a need?
    Mr. Hopmeier. Yes, sir, there is.
    Mr. Shays. Okay. Let me just go through. Is there a need to 
get the World Health Organization more involved in this?
    Mr. Franz. Yes. I would like to elaborate very briefly.
    Mr. Shays. I will come back to you.
    Mr. Franz. Okay.
    Dr. Relman. Absolutely, yes.
    Mr. Shays. Okay. Elaborate.
    Mr. Franz. I, working again with the Russians, for example, 
or with other countries talking about international disease 
surveillance, they do not like to hear a ``made in the USA'' 
disease surveillance program. So I think it is very important, 
whether it is agriculture or human health that we go to an 
international body. That gives them a great deal of comfort. We 
are more likely to gain information about what is going on if 
it goes through the WHO than if we try to collect it.
    Mr. Shays. Anybody else want to elaborate quickly as to how 
we can incentivize them to be involved?
    Mr. Franz. I would just add that I also work, in fact I am 
going to be in Geneva, I will be meeting with Ken and with the 
people that do the deliberate epidemics next week.
    Mr. Shays. First off, I envy you. Nice place to go.
    Mr. Franz. It is.
    What I find there is that it is one person and one program, 
like one riot and one ranger. They just are so under-resourced 
and they are dependent. The project I am working on them with 
is funded by the Sloan Foundation to do things related to what 
we are talking about. So resourcing is a huge problem.
    Mr. Shays. Thank you. WHO needs resources and funds. 
Second, a much more productive relationship with the working 
life-science research community. They have tended to be 
somewhat separated from that big worldwide community.
    Thank you.
    Mr. Hopmeier. Yes, sir. I believe resources are important, 
but more importantly is more than paying lip service to the 
importance of deliberate epidemics. I can tell you from 
personal knowledge and experience, while we have said at a very 
high level, the secretary level, that it is an important issue, 
WHO is then left to set its own internal priorities. And 
frankly, deliberate epidemics is a low priority. We do not 
enforce with other nations out belief of what is important, and 
it gets lost in the bureaucracy very frequently.
    Mr. Shays. Thank you all very much.
    Thank you, Mr. Chairman.
    Mr. Linder. The gentleman from Washington?
    Mr. Dicks. Have you gentlemen been following the Bioshield 
Program at all?
    Dr. Relman. Peripherally.
    Mr. Franz. Yes, very much so.
    Mr. Dicks. Okay. I am very concerned this program is not 
getting off the ground. For example, should we put into place 
deadlines for the DHS to finish material threat assessments on 
all 60 of the biological agents listed on the CDC Web site?
    Mr. Hopmeier. I personally do not believe putting in place 
arbitrary deadlines, no matter how well-founded, is the answer. 
I think the primary shortcoming is a lack of specific process 
and understanding. We have a vague mission: here are the 
threats, which are most important, how to address them. There 
is no specificity as to how to prioritize those threats or what 
we mean and define by addressing them.
    Simply putting in place deadlines I do not think will 
answer the fundamental problem here.
    Mr. Dicks. What concerns me is that only four of the 
material threat assessments have been done at this juncture.
    Mr. Franz. I personally think that when you are talking 
about Bioshield, you are by definition talking about medical 
counter-measures.
    Mr. Dicks. Right.
    Mr. Franz. Specific medical counter-measures for emerging 
disease or for bioterrorism, there will be I believe a very 
small number of agents for which we can develop counter-
measures. I have a set of outliers in my mind. I call them 
outliers, smallpox, anthrax and foot and mouth disease. Foot 
and mouth disease is not a human pathogen, but an animal 
pathogen and economic threat. Those I can see my way forward, 
developing vaccines for. There is a good reason to have a 
vaccine for anthrax. There is a good reason to have a vaccine 
for smallpox, technically and medically.
    You get very far down that list and in our current system 
where it takes 6, 8, or 10 years in the tech base and 10 or 12 
or 15 years in advanced development and production, it is just 
not feasible to use a prophylactic medical counter-measure to 
protect against a long list of threat agents. If you look at 
the concept of operation, there is just not a way to use them.
    I think on the other hand, broad-spectrum antibiotics and 
broad-spectrum anti-viral drugs, which can be used 
therapeutically, are very useful. I do not know what the law 
says now with regard to dual-use. Initially, it said we can 
only spend this money on drugs that are not dual-use, orphan 
drugs that are useful only for terrorist incidents, and I am 
not sure whether that has been changed.
    Mr. Dicks. Do any of you follow the radiation issues?
    Mr. Hopmeier. I have a little.
    Mr. Dicks. That is one where there are companies out there 
that have tried to work with the DHS and with HHS, and they 
just have totally been frustrated by the approach that is being 
taken. They have spent millions of dollars. They have asked for 
a contract, assuming that they can get through the FDA 
procedures. And they have just struck out with the department.
    To me, we are talking about hundreds of thousands of lives 
if we do not have some kind of medical thing you can take 
within a certain number of hours after an attack. For the 
department to do nothing about this is kind of shocking to me.
    Mr. Hopmeier. I would not say that they are doing nothing, 
sir. I think that the problem is that they are mired in a 
bureaucracy which is not applicable to this arena. The 
underlying premise for Bioshield was, one, that there was a 
problem in production and incentivizing the manufacture of 
limited-use counter-measures, orphan drugs, if you will. That 
is correct and I absolutely agree with it.
    The second part of that was that the simple solution was 
let's set aside a pot of money and give them a little bit more 
money. That I think is fundamentally wrong. It is not an issue 
of any level of funding that our government could actually 
appropriate and apply.
    To put it quite frankly and bluntly, the entire United 
States of America is not a large enough market for these drugs 
to justify real economic interest within these industries. If 
we are going to try and incentivize them, we have to truly 
understand what drives them, the size of their market, and work 
with them, not try and artificially impose a requirement. Here 
is $5.8 billion over 10 years. Frankly, gentlemen, that is 
nothing in the pharmaceutical industry, for everything.
    We need to be more intelligent and more enlightened about 
how they work, what they need, and how to work with them. This 
is not the Department of Defense in the 1970s where it could 
call the tune for everything. The markets are just much, much 
larger than we are.
    Mr. Dicks. From the military perspective, should the 
military have these shots that can be taken to protect people 
from radiation syndrome?
    Mr. Franz. I do not know that topic very well to comment, 
sir.
    Mr. Dicks. All right.
    Thank you, Mr. Chairman.
    Mr. Linder. Mr. Simmons is recognized.
    Mr. Simmons. Thank you, Mr. Chairman.
    Again, congratulations.
    Mr. Shays. Excuse me, Mr. Chairman. Isn't it my time?
    [Laughter.]
    I would be happy to yield to the gentleman.
    [Laughter.]
    Mr. Simmons. Boy, so congenial. Great. I thank the 
gentleman for yielding to me.
    Mr. Shays. The gentleman is welcome.
    Mr. Simmons. Thank you again, Mr. Chairman and the Ranking 
Member, for this very interesting and far-reaching discussion 
of a critically important issue.
    I would like, if I could for a moment, to kind of bring it 
back down to an issue of particular interest to me.
    Foot and mouth disease was mentioned. I believe one of the 
few areas of the country, maybe the only area in the country 
where we do extensive research on foot and mouth disease is at 
the Plum Island Animal Research Center on Plum Island, New 
York. This activity used to be supported by Agriculture. It was 
transferred to the Department of Homeland Security. The 
department is currently undergoing an examination of how it is 
going to be doing a lot of research.
    There is some discussion of whether Plum Island will be 
closed; whether research on hoof and mouth disease should be 
moved to the Midwest somewhere. Ames, Iowa does not seem to be 
a good idea to me. That is where you have a lot of hogs and a 
lot of other cloven-hoofed animals. Whereas currently, Plum 
Island is surrounded by a moat of Long Island Sound, which is 
pretty safe.
    Plum Island, the Animal Research Institute, should this 
become more of a center in the Department of Homeland Security 
for bioterrorism research and analysis? Can we build on this? 
Do you feel that the department really has a mission for this 
facility at this point in time? Is there value in building 
around what we have already created at Plum Island, but enhance 
it based on the current mission of the Department of Homeland 
Security to defend us against a bioterrorist threat?
    Mr. Franz. I have given some thought to the agricultural 
threat problem. I mentioned it in my short list of outliers.
    Mr. Simmons. Yes, you did. One was foot and mouth disease.
    Mr. Franz. When we are talking about agriculture, we are 
thinking about dollars not about people's lives, for the most 
part. These are not zoonotics. Foot and mouth disease is a 
disease of animals, and the estimates I have seen are $40 
billion to $60 billion should we have an outbreak in this 
country. So you can measure it in dollars, not in human lives.
    I believe that is one that we should do everything we can 
to deal with once we have an outbreak. It is so easy, if you 
see in my written statement, I talk about a spectrum of easy-
to-hard for a terrorist group. Foot and mouth disease is this 
much material, pretty stable, carried across from Europe or 
Asia or Africa today, and wiped on the nose of a friendly dairy 
cow in Iowa and it takes off. It is the most contagious and one 
of the most infectious organisms that we know. So I think it is 
one that we really need to think about.
    I do not think it has to be protected by a moat. As you may 
know, I ran USAMRIID, the Army's Institute of Infectious 
Diseases, where we have a lot of bad bugs. I believe we are 
capable of containing that organism within walls with 
appropriate handling systems and procedures and facilities and 
equipment. That is probably not the argument here today, but I 
think we can work it in other places within the country safely.
    With regard to Plum Island's role as a bioterrorism threat 
evaluation center, I think it is part of that hub-and-spoke 
model that DHS has and will eventually have a building and will 
become the center of. I think that they need to work closely, 
but I would be concerned about taking the scarce resources that 
we have at Plum Island and focusing them too much on threat 
analysis and threat characteristics. I think they need to be 
working on counter-measures and let the threat people tell them 
what they believe the counter-measures are that need to be 
developed.
    Mr. Simmons. I thank the gentleman.
    I yield back.
    Thank you all very much.
    Mr. Linder. Thank you very much for your time. Of all the 
subcommittee hearings we have sat through, this has been the 
most interesting to me. We may be talking to you again.
    Without objection, the hearing is adjourned.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]


                    BIOSCIENCE AND THE INTELLIGENCE



                       COMMUNITY: CLOSING THE GAP



                                PART II

                              ----------                              


                         Thursday, May 4, 2006

             u.s. House of Representatives,
                    Committee on Homeland Security,
                      Subcommittee on Prevention of Nuclear
                                     and Biological Attack,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:50 p.m., in 
Room 2212, Rayburn House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Langevin, and Norton.
    Mr. Linder. The Subcommittee on Prevention of Nuclear and 
Biological Attack will come to order. We are here to hear 
testimony on ``BioScience and the Intelligence Community (Part 
II): Closing the Gap.''
    I want to thank our distinguished panel of witnesses for 
being here today. Last November this subcommittee heard from 
academic experts about the continuous link between the 
Bioscience and Intelligence Communities. During that hearing 
the witnesses gave us an image of an intelligence community 
that is increasingly hard pressed to face the explosion of 
biotechnology, making it more difficult to identify and 
mitigate biologic threats.
    The testimony highlights what I consider to be a very real 
problem. As we know, the science community is inherently open, 
and the free flow of ideas is key to developing new and 
innovative technologies. Their openness, however, has potential 
to provide sensitive information to individuals who wish to use 
that information for harmful purposes.
    In fact, on Tuesday U.N. Secretary General Kofi Annan 
warned that although biotechnology advances could help 
eliminate infectious diseases, it could also bring incalculable 
harm and be put to destructive use by those who seek to develop 
designer diseases and pathogens.
    This is where the Intelligence Community has to come into 
the picture. Their unique capabilities and understanding of 
bioterrorists and other threats can be strengthened by a better 
link to the Biosciences Community. As we heard in November, we 
must attract cutting edge bioscientists to the Intelligence 
Community and be able to retain their expertise on a continual 
basis.
    This increase will facilitate an integration of knowledge 
held by the scientific community around new potentially 
hazardous developments in biotechnology with risks defined by 
the Intelligence Community. Intelligence, for example, is 
needed to either confirm or allay our fear that new 
biotechnology will create a super germ, as well as intelligence 
is crucial to guiding our assessment of risk and identifying 
those specific threat agents for which we need new drugs or new 
detection systems. Finally, intelligence is needed to find 
people.
    I have said many times in this committee that the ways to 
harm Americans are infinite and the agents to do so are 
infinite. The people willing to do damage are finite. Perhaps 
we should spend more time and money looking for people rather 
than things.
    Our perspective today comes from the U.S. Intelligence 
Community, which is tasked with strengthening the relationship 
between it and the Bioscience Community. If we are to prevent 
future bioterrorist attacks on this country, we must develop a 
knowledge base within that community in the area of biosciences 
and guide the gathering of intelligence to evaluate it and 
assess its impact.
    I look forward to hearing what our witnesses have to say 
about this issue today. We may learn more about what the U.S. 
Government is actually doing to bridge this gap and what 
Congress if anything could can and should do to help.
    I recognize my friend from Rhode Island, Mr. Langevin, for 
an opening statement.
    Mr. Langevin. Thank you, Mr. Chairman, I welcome our 
witnesses here today and thank you for appearing before us. 
Today's hearing, BioScience and the Intelligence Community, is 
a continuation of a hearing this subcommittee held in November. 
At that time members of the subcommittee were introduced to a 
topic that many of us might not have thought of before, the 
idea of medical and biological intelligence.
    Although it is not as widespread a practice as some other 
intelligence gathering, there are those within the Intelligence 
Community who are familiar with the collection and analysis of 
this type of information, and we are fortunate to have these 
experts here today to describe their activities and to help us 
understand how biointelligence capabilities might be improved.
    I know from my service on the House Armed Services 
Committee the importance the military places on medical 
intelligence. It is crucial for a battlefield commander to have 
a clear picture of all the hazards that his troops may face. 
Often this includes not only the capabilities of the enemy's 
weapons, but also the local epidemiology. Commanders must know 
how safe the local water supply is. Should soldiers be aware of 
communicable diseases that he must protect them against? Does 
the enemy possess chemical or biological weapons capabilities? 
If so, what is the most effective countermeasure?
    The medical and bioscience intelligence professionals in 
the military can answer these questions. There are lessons that 
can be learned from the military's approach to protect not just 
our military men and women, but also our civilian population as 
well.
    Of course, there are differences. For example, if a 
military commander is told that his soldiers will be operating 
in the area where anthrax is endemic among animals, such as 
Afghanistan, he can simply order his troops to be vaccinated. 
While I am sure that there are many useful lessons we can learn 
from the military, I also know that we cannot apply all of the 
systems and procedures directly to the civilian side.
    I am also interested to know what these similarities and 
differences are between bioweapons and naturally occurring 
diseases. For example, will systems used to detect and defend 
against bioweapons also be effective for naturally occurring 
diseases?
    From what I have heard, the seriousness of a potential 
avian flu pandemic is much greater within scenarios I have seen 
for a possible bioweapons attack. While this committee and the 
Department of Homeland Security are more focused on intentional 
attacks rather than natural catastrophes, we hope that we can 
leverage our practices so they will be helpful for either 
eventuality.
    I am convinced that infectious diseases, both intentional 
and naturally occurring, present one of the most serious 
threats that this Nation faces. I certainly look forward to an 
open and informative discussion today, and I want to understand 
the activities of the Intelligence Community in this area, and 
I certainly hope that we can figure out a way to improve our 
national biointelligence capabilities.
    Once again, I want to thank our witnesses for being here. I 
certainly look forward to your testimony.
    Mr. Chairman, I yield back.
    Mr. Linder. Thank you. Our witnesses today bring us some 
information on this issue.
    Ambassador Kenneth Brill, Director, National 
Counterproliferation Center, Office of the Director of National 
Intelligence. Charles Allen, the Chief Intelligence Officer of 
the Department of Homeland Security. Mr. Bruce Pease, the 
Director of Weapons Intelligence, Nonproliferation and Arms 
Control, for the Central Intelligence Agency, and Dr. Alan 
MacDougall, Chief, Counterproliferation Support Office with the 
Defense Intelligence Agency.
    I will remind each of the witnesses that your written 
statements will be part of the record without objection. We 
would urge you to summarize.
    Ambassador Brill.

   STATEMENT OF AMBASSADOR KENNETH BRILL, DIRECTOR, NATIONAL 
COUNTERPROLIFERATION CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Brill. Thank you very much, Mr. Chairman and ranking 
member. I very much appreciate the invitation here today and I 
am pleased to discuss steps that the National 
Counterproliferation Center is taking to address some of the 
recommendations put forward on the intelligence capabilities of 
the United States regarding weapons of mass destruction on the 
BW topic, and thereby enhancing the ability of the Intelligence 
Community to meet the threat posed by the proliferation of 
biological weapons and related technologies.
    Let me begin today by underscoring what role NCPC plays on 
issues like biothreats. Expertise and analysis and collection 
resides in CIA, DIA, DHS, NSA and other elements of the 
Intelligence Community. NCPC's role is to ensure that there is 
an integrated effort throughout the community against key 
counterproliferation priorities and to promote partnerships 
among elements of the Intelligence Community, the non-
Intelligence Community, government agencies and experts outside 
of government.
    This role is critical as counterproliferation clearly 
requires a team effort, and nowhere is this more true in the 
area of biological threats to U.S. national security. Today I 
will discuss NCPC's efforts to better and strengthen the IC's 
work on biological threats. I will review steps we are taking 
to build partnerships within the U.S. Government and with 
biological experts outside of government and to discuss plans 
to strengthen the IC's life sciences workforce.
    The major challenge for the IC in dealing with bio-related 
issues is research and development applications and 
technologies that are completely dual use. That is to say, 
legitimate research that might, and I emphasize might, be 
misused to cause harm to public health and homeland and 
national security. The IC has written numerous assessments so 
that the potential impact of existing and emerging technologies 
related to biological weapons proliferation, as these 
technologies are developed from or applied to the life 
sciences.
    These assessments utilized the talented in-house scientific 
expertise of our IC analysts and scientists, and also drew on 
the advice of outside technical experts.
    Although some believe that we will better understand the 
threats we face from the offensive use of biological agents 
only if we follow technological advances that have the 
potential to be misused and track those working in these areas. 
Our experience indicate that this is a strategy of looking for 
hay in a haystack.
    The key questions for the Intelligence Community are 
primarily not highly technical in nature. We must determine if 
a state adversary has the intent to establish, maintain, or 
acquire a BW program, because a country of concern typically 
will also have dual-use capabilities in those areas.
    Some nonstate actors such as al-Qa'ida have publicly stated 
they have the intent to have an offensive biologic capability, 
and the IC must constantly monitor the plans and capabilities 
of these groups in order both to block the acquisition of such 
a capability as well as determine their plans for using such 
capability as they acquire it.
    Focusing on technology alone will not answer these 
questions. I agree with you, sir, it can lead to speculation 
based on nightmare scenarios that are not necessarily grounded 
in reality.
    Another challenge facing the IC is that biological threat 
agents go beyond manmade substances. A global pandemic would 
have dramatically negative consequences for the national 
security interest of the United States. While such a pandemic 
would be largely dealt with by those U.S. Government agencies 
concerned with domestic and international public health issues, 
the IC would be looked to for actionable medical intelligence 
about the spread of pandemic diseases that would not be 
available publicly for one reason or another.
    The IC would also be called upon to provide analysis to 
support the efforts of U.S. Government Public Health and other 
agencies. Thus, while the IC would not be a primary actor in 
dealing with a pandemic situation, it needs to be prepared to 
play an important supporting role.
    The National Counterproliferation Center is working with 
Intelligence Community agencies to establish new partnerships 
and relationships with the biologic and public health 
communities to ensure that it is prepared to meet the various 
challenges of biological threats to the United States.
    Let me outline for you briefly now a few of the steps that 
we are taking in this regard. First, and consistent with the 
recommendations of the WMD Commission's report, NCPC has 
established the position of a senior adviser for biological 
issues. Dr. Lawrence Kerr has recently assumed this position 
and is accompanying me today. Dr. Kerr has been tasked to 
enhance the partnership of the IC with non-U.S. Government 
sectors, which, as you have noted, both you and the ranking 
member have noted, have incredible scientific and technical 
expertise to support and improve our overall intelligence of 
biological threats.
    An important part of his partnership building efforts will 
be working with IC agencies and nongovernmental experts to 
establish the Intelligence Community's first broadly focused 
biological advisory group. This group will report to the 
Director of National Intelligence through me as being 
established to serve the Intelligence Community as a whole. 
NCPC shall convene this group of nongovernment experts to work 
with the Intelligence Community on a regular basis, and members 
of this group will have security clearances so they can address 
the most challenging biological threat problems with which the 
Intelligence Community is dealing.
    NCPC has also begun an effort to improve information 
sharing within the Intelligence Community as well as with life 
science experts inside and outside of the U.S. Government. Our 
approach includes determining what types of traditional 
intelligence and scientific information the Intelligence 
Community needs to better answer questions posed by senior 
policymakers and how to ensure this information is distributed 
to all relevant parties within the Intelligence Community.
    We initiated this effort in early April when we co-hosted, 
really, with the National Counterterrorism Center an IC 
conference that focused on community building, information 
sharing and defining the Intelligence Community's roles against 
the full spectrum of biological threats, natural to manmade.
    The conference was well attended and included approximately 
85 participants from 14 intelligence agencies, as well as 
senior representatives from four combatant commands. 
Participants in the conference were senior analyst, collectors 
and science and technology officers.
    Feedback from this conference has helped us define areas 
where biological scientists and other experts from the broader 
U.S. Government and outside the U.S. Government could aid in 
technical evaluations. The conference also provided insight in 
ways to improve our intelligence regarding biological threat 
agents themselves.
    In addition, we initiated an internal review of collection 
efforts associated with biological threat agents. This review, 
along with the engagement of the Intelligence Community through 
the conference I mentioned previously, will result in 
recommendations that will address any gaps in our processes. 
The review will also identify ways in which we can better 
support customer needs for bio-related intelligence.
    Mr. Chairman, the ability of our biodefense community to 
anticipate, eliminate, prepare for and, if necessary, respond 
to a biological weapons attack on the United States, as you 
noted, depends on improved intelligence collection analysis and 
proper dissemination of that information to relevant customers.
    We recognize in the Intelligence Community that numerous, 
non-IC partners must be more fully engaged in these processes 
in order to improve biodefense infrastructure. We are working 
closely with all U.S. Government organizations involved in the 
biodefense mission to ensure our biodefense customers are part 
of the requirement-setting process, that they are fully aware 
of the IC's capabilities and limitations and that they are 
recipients of the intelligence analyses they need to perform 
their part of the biodefense mission.
    In this regard, in July, we will cosponsor with the 
Department of Homeland Security and the National 
Counterterrorism Center, a second biothreats conference that 
will include all relevant USG agencies, not just Intelligence 
Community agencies, to expand awareness, address common 
concerns and identify ways to share information that is 
mutually beneficial. If this forum is anything like the first 
one, it will stimulate discussion on issues regarding the 
biological information most valued and already possessed within 
the U.S. Government and will identify gaps in our current 
systems of collection and analysis. Our goal will be ensuring 
these gaps are closed through a strategic planning and 
implementation of those plans across the Federal Government.
    Following this conference, in the fall, NCPC, again with 
the Department of Homeland Security and the National 
Counterterrorism Center, will co-host a third conference 
involving representatives of the U.S. Government as well as 
representatives from academia and the private sector to explore 
how these sectors outside of government might help fill 
information gaps.
    We are already engaging leading experts in certain 
designated fields who can add technical insight into current 
and emerging biological threats, and we continue to seek their 
counsel on how to most productively engage non-U.S. life 
scientists in that larger community.
    Mr. Chairman, the National Counterproliferation Center is 
in the final stages of preparing a strategic 
counterproliferation plan with the Intelligence Community. This 
plan will, among other things, identify enhancements of the 
Intelligence Community's counter-BW capabilities as a priority 
goal and will stress the need for the Intelligence Community to 
fully integrate and coordinate the efforts it has under way 
against the BW threat.
    It also acknowledges that the Intelligence Community's 
success in dealing with biothreat challenges is dependent upon 
having the skilled workforce needed to deal with these complex 
issues. The plan will promote the recruitment, the development 
and retention of the highly skilled and specialized workforce 
needed to sustain success in acquiring and using high value 
intelligence information against each of the WMD threats we 
face, but particularly the BW target.
    Mr. Chairman, in conclusion, we in the Intelligence 
Community recognize that we need to continue to integrate and 
focus our efforts internally, to actively seek partnerships 
externally and to attract and retain skilled life scientists 
into our workforce, if we are to be successful in dealing with 
the challenges to our national biothreat security.
    We know what we have to do in this regard, and have made a 
good start in achieving these goals in all of these areas.
    [The statement of Mr. Brill follows:]

                             FOR THE RECORD

               Prepared Statement of Ambassador Ken Brill

                         Thursday, May 4, 2006

    Mr. Chairman, Ranking Member, and distinguished Subcommittee 
members, I am pleased to appear before you today to discuss the steps 
the National Counterproliferation Center (NCPC) is taking to address 
some of the recommendations put forward by The Commission on the 
Intelligence Capabilities of the United States regarding Weapons of 
Mass Destruction (WMD) on the biological warfare (BW) topic, thereby 
enhancing the ability of the Intelligence Community (IC) to meet the 
threat posed by the proliferation of biological weapons and related 
technologies.
    Let me begin by underscoring what role NCPC plays on issues like 
bio threats. Expertise in analysis and collection resides in the 
Central Intelligence Agency (CIA), the Defense Intelligence Agency 
(DIA), the Department of Homeland Security (DHS), the National Security 
Agency (NSA), and other elements of the Intelligence Community. NCPC's 
role is to ensure there is an integrated IC effort against key 
priorities and to promote partnerships among the elements of the IC, 
non-IC United States (U.S.) government (USG) agencies, and experts 
outside of government. NCPC's priority-setting and integrating role is 
critical, as counterproliferation requires a team effort, and nowhere 
is this more true than in the area of biological threats to U.S. 
national security.
    Today, I will discuss efforts to strengthen the IC's life sciences 
work force, the creation of a biological science advisory group that 
NCPC's Senior Bio Advisor will establish and run, and our initiatives 
to make more effective links between biological experts throughout 
government and outside the government with the IC. In addition, I would 
like to take some time to tell you about a few other initiatives NCPC 
has underway to promote an integrated IC approach to the problem of 
biological threat agents, increase teamwork, and fill gaps in our 
knowledge about the biological threats posed from state and non-state 
actors.

The Challenges Facing Bio Threat Intelligence
    A major challenge for the Intelligence Community in dealing with 
bio-related issues is research and development applications and 
technology that are completely dual-use--i.e., legitimate research that 
might (and I emphasize `might') be misused to cause harm to public 
health and homeland and national security. The IC has written numerous 
assessments of the potential impact of existing and emerging 
technologies related to biological weapons proliferation as these 
technologies are developed from or applied to the life sciences; a 
major portion of the 2004 National Intelligence Estimate on worldwide 
BW programs was devoted to this issue. These assessments have utilized 
the talented in-house scientific expertise of our analysts and 
scientists and have drawn on the advice of outside technical experts as 
well.
    Although some believe that we will understand the threats we face 
from offensive use of biological agents if only we follow technological 
advances that have the potential to be misused and track who in the 
world is working in these areas, our experience indicates that this is 
a strategy of looking for hay in a haystack. The key questions for the 
Intelligence Community are primarily not highly technical in nature.
        <bullet> We must determine if a state adversary has the intent 
        to establish, maintain, or acquire a BW program, because a 
        country of concern typically will have a dual-use capability. 
        Whether that capability is for legitimate medical purposes, 
        developing defensive countermeasures, or is for offensive BW is 
        closely guarded, non-technical information.
        <bullet> Some non-state actors, such as al-Qa'ida, have 
        publicly stated that they have the intent to eventually have an 
        offensive biological capability, so the IC must constantly 
        monitor the plans and capabilities of these groups in order to 
        determine who, where, and under what circumstances they will 
        actually use them.
    Focusing on technology alone not only does not answer these 
questions, but it can lead people to speculate on nightmare scenarios 
that are not grounded in reality.
    Another challenge facing the IC is that biological threat agents go 
beyond man-made substances produced by state programs or terrorist 
groups. A global pandemic would have dramatically negative consequences 
for the national security interests of the United States. While such a 
pandemic would be largely dealt with by those US government agencies 
concerned with domestic and international public health issues, the 
Intelligence Community would be looked to for actionable medical 
intelligence about the spread of pandemic diseases that would not be 
available publicly or that others might cover up for one reason or 
another. The IC would also be called upon to provide analysis to 
support the efforts of U.S. government public health and other 
agencies. Thus, while the IC would not be a primary actor in dealing 
with a pandemic situation it needs to be prepared to play an important 
supporting role.

    Expanding Partnerships and Collaboration
    NCPC is working with IC agencies to ensure the IC is prepared to 
succeed in meeting the various bio threat challenges to U.S. national 
security. In this regard, NCPC works to establish important new 
partnerships and relationships with the life science and public health 
communities. The following are some of the steps we are taking.
    First, and consistent with the recommendations of the WMD 
Commission's Report, NCPC has established the position of Senior 
Advisor for Biological Issues. Dr. Lawrence Kerr has recently assumed 
this position and is accompanying me today.
    Dr. Kerr completed his Ph.D. in Cell Biology from Vanderbilt 
University and undertook his postdoctoral work at the Salk Institute 
for Biological Studies in San Diego, California. Dr. Kerr has a wealth 
of expertise pertinent to the mission of the Senior Advisor. He ran a 
basic science laboratory devoted to the regulation of gene expression 
as faculty at Vanderbilt School of Medicine and now Georgetown School 
of Medicine. His political experience has taken him from developing 
policy and staffing senior officials of the White House (within the 
Office of Science and Technology Policy and most recently, as Director 
for Biodefense Policy within the Homeland Security Council) to the 
Congress (as a fellow on the Health subunit of the Senate Judiciary 
Committee). He remains actively engaged with the life science and 
public health communities writ large. His experience in fostering 
policy to meet national objectives has brought him the respect of the 
Federal Departments and Agencies, and individuals and groups from the 
private sector and academic communities with whom he routinely lectures 
at the national and international levels and works to coordinate policy 
and plans.
    Dr. Kerr is tasked with promoting greater collaboration among the 
interagency, academic and private sector to improve intelligence 
related to biological threats. As part of this effort, Dr. Kerr is 
working to identify new partnerships that should be developed with 
entities outside the IC and outside the U.S. Government, to strengthen 
the IC's counter-BW capabilities.
    An important part of Dr. Kerr's partnership building efforts will 
be working with IC agencies and non-governmental experts to establish 
the IC's first broadly-focused biological science advisory group. This 
group will report to the DNI through the Director of NCPC, but it will 
serve the IC as a whole. While the classified charter for this group is 
under review, we envision a panel of nationally recognized leaders in 
the life sciences, engineering, public health and medicine, veterinary 
medicine, pharmaceutical experts and many other disciplines. NCPC shall 
convene this group of non-government experts to work with the 
Intelligence Community on a routine basis.
    This advisory group will draw from the best practices of existing 
IC advisory panels, which will require that the life scientists and 
associated experts possess security clearances, permitting their 
exposure to and understanding of our nation's current capabilities in 
collection, analysis, and the science and technology brought to bear in 
performing these missions. The group will complement, not duplicate, 
the work of the Defense Science Board (DSB), the Intelligence Science 
Board, the National Science Advisory Board on Biosecurity (NSABB), or 
the Defense Intelligence Agency's Jefferson Project and Biochem 2020 
group. The new advisory group we will look across the broad horizon of 
known and emerging biological threat agents challenges for U.S. 
intelligence, ranging from man-made substance and state and terrorist 
programs to naturally occurring pandemics, and thereby support the 
fundamental mission of the NCPC, fulfill the commitments in the 
President's Homeland Security and National Security Presidential 
Directives (HSPD-10/NSPD-33, ``Biodefense for the 21st Century) and 
build on recommendations from the Institute of Medicine's (IOM) recent 
report and the advise of renowned leaders in the field.
    We envision the new bio advisory panel will include a permanent 
advisory group of leading experts with access to a network of cleared 
scientists who are able to tap into the scientific and technical 
experts across the life sciences. We will encourage this group to 
partner with the existing life science-related committees in and out of 
the Federal government in order to prevent redundancy and augment on-
going projects. NCPC, with input from the IC, will ask the advisory 
group to identify issue areas and cutting-edge technologies that might 
pose a future threat to our security.

Enhancing Collaboration through Information Sharing
    NCPC has also begun an effort to improve information sharing within 
the IC as well as with life science experts inside and outside of the 
USG who can extend the breadth and depth of scientific understanding 
brought to bear on the issue of biological threat agents. The approach 
includes determining what types of traditional intelligence and 
scientifically grounded information the IC needs to better answer the 
questions posed by senior policymakers and how to ensure it is 
distributed to all relevant parties within the IC. We envision that 
existing working groups and policy coordinating committees will be 
asked to work on strategies to resolve key issues that are identified 
during this process.
    We initiated this effort in early April when we co-hosted with the 
National Counterterrorism center (NCTC) an IC conference that focused 
on community building, information sharing, and defining the 
Intelligence Community's roles against the full spectrum of biological 
threats, natural to intentional. The conference was well attended, with 
approximately 85 participants from 14 intelligence agencies (including 
senior representatives from 4 combatant commands). Participants in the 
conference were senior analysts, collectors, and science and technology 
officers. Each organization briefed its mission, goals, and needs. 
Participants told us these briefings provided valuable insights into 
the array of bio-related activities ongoing in the IC. In addition, we 
conducted smaller-group discussions on specific issues, including 
improving information sharing both within and outside the IC, and 
defining the IC's role in covering natural disease outbreaks. Feedback 
from this IC conference has helped us define areas where biological 
scientists and other experts from the broader USG and outside of 
government could aid in technical evaluations and has given us insight 
in ways to improve our intelligence regarding biological threat agents.
    In addition, we initiated an internal review of collection efforts 
associated with biological threat agents. This review, along with the 
engagement of the IC writ large through the aforementioned conference, 
will result in recommendations that will address any gaps in our 
current processes as well as identify ways in which we can better 
support our IC customer's need for bio-related intelligence.
    The ability of our biodefense community to anticipate, eliminate, 
prepare for, and if necessary, respond to a biological weapons attack 
on the United States depends on improved intelligence collection, 
analysis and proper dissemination of that information to the relevant 
customers. We recognize that numerous non-IC partners must be more 
fully engaged in these processes for an improved seamless biodefense 
infrastructure. We are partnering closely with all U.S. government 
(USG) organizations involved in the biodefense mission, such as the 
Departments of Health and Human Services (HHS), Homeland Security 
(DHS), the Department of Defense, the US Department of Agriculture, and 
others to make sure that all of our customers not only are part of the 
requirements setting process, but that they are fully aware of our 
capabilities and limitations--and are recipients of the intelligence 
analyses they need in order to perform their part of the biodefense 
mission.
    In July we will co-sponsor, with NCTC and DHS, a second bio threats 
conference to expand awareness, address common concerns and identify 
ways to share information that is mutually beneficial to the 
Departments while maintaining their respective mission areas. We will 
discuss how to better identify, acquire, distribute, integrate, and 
utilize diverse streams of information within the US government so the 
threats posed by known and emerging biological agents are more 
effectively identified, characterized and addressed. If this forum is 
anything like the first one, it will surely stimulate discussion on 
issues regarding the biological information most valued and already 
possessed within the U.S. government and will identify gaps in our 
current systems of collection and analysis. Our goal will be to ensure 
that these gaps are closed through strategic planning and 
implementation of those plans across the Federal government.
    In the fall, NCPC will co-host with NCTC and DHS a third conference 
involving key representatives from academia and the private sector to 
explore how these sectors might help fill our information gaps. We are 
already engaging leading experts in certain designated fields who can 
add technical insight into current and emerging biological threats and 
we are seeking their counsel on how to most productively engage non-USG 
life scientists.

Building and Sustaining the Workforce Needed to Meet Bio Threat 
Challenges
    NCPC is in the final stages of preparing a strategic 
counterproliferation plan for the IC. This plan will, inter alia, 
identify enhancement of the IC's counter-BW capabilities as a priority 
goal and will stress the need for the IC to fully integrate and 
coordinate the efforts it has underway against the BW threat. It will 
also acknowledge the IC's success in dealing with bio threat challenges 
is dependent upon having the skilled workforce needed to deal with 
these complex issues. The plan will promote the recruitment, 
development, and retention of a highly skilled and specialized 
workforce needed to sustain success in acquiring and using high value 
intelligence information against each of the specific WMD threats, 
including the BW target. The key initiatives will include, inter alia:
        <bullet> Recruitment--in partnership between the Communities, a 
        workforce mapping and assessment initiative will establish the 
        current baseline; identify any expertise shortages or gaps; and 
        then will work to develop an interagency process to promote 
        candidate sharing and make recommendations for agency 
        recruitment.
        <bullet> Career Development--an initiative to identify career 
        benchmarks for life science professionals across the Community; 
        review training and improve communications and access to 
        strengthen external linkages with experts; and will work to 
        find new ways to increase the numbers of analysts, collectors 
        and other life science and technology experts.
        <bullet> Retention--we are reviewing agency retention 
        strategies; communicating best practices; and working to 
        establish a Community Rewards Program recognizing collaborative 
        achievement.
        <bullet> And finally, partnership is the key--partnering with 
        the Office of the Director of National Intelligence (ODNI) and 
        other Community members to leverage the best talent and 
        expertise within the private sector.

Conclusion
    Bio threats are among the most complex challenges facing the IC. 
The biological sciences are producing new findings and innovations at a 
remarkable pace. These innovations hold the promise to advance human 
health, but those also have the potential to be misused by state 
weapons programs or terrorists. At the same time, the possibility of 
naturally occurring pandemics is increasing. We recognize that 
significant challenges remain for the collection of traditional 
intelligence and other kinds of information to assist in attack 
warning, countermeasure development and strategic level policy-making 
related to biothreats to the U.S. NCPC is working with IC agencies to 
integrate the IC's work on bio threat challenges. In addition, NCPC is 
leading an effort to build partnerships for the IC with non-IC U.S. 
government agencies, as well as with the non-government life science 
communities. Finally, NCPC is also working with the IC agencies to 
ensure the IC has the workforce it needs in the future to deal 
successfully with bio threat challenges. We have much to do to realize 
our goals, but we have made a good start toward achieving our goals in 
all these areas.

    Mr. Linder. Thank you, Ambassador Brill.
    Mr. Allen.

  STATEMENT OF CHARLES E. ALLEN, CHIEF INTELLIGENCE OFFICER, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Chairman Linder, Ranking Member Langevin, 
Congressman Norton, thank you very much for inviting me here to 
discuss a very important topic for the Department of Homeland 
Security intelligence and for the rest of the Intelligence 
Community.
    The consequences of a high impact bioterrorist attack upon 
the homeland could be catastrophic, rivaling the casualties and 
the economic damage caused by the detonation of a nuclear 
weapon in a major city.
    Because the potential consequences of bioterrorism are so 
great and the knowledge and materials for biological weapons 
development are likely to become more available in the future, 
the Department of Homeland Security ranks the biological threat 
as among its highest concerns.
    In this statement, I will first describe the bioterrorism 
threat we currently face as well as the prospects for 
terrorist-developed advanced biological agents. I will then 
describe efforts Department of Homeland Security intelligence 
is taking to make unique contributions to existing Intelligence 
Community efforts to combat bioterrorism.
    The threat of bioterrorism is real. We know that al-Qa'ida 
since the late 1990s has sought biological weapons and 
progressed to the point of constructing a biological production 
facility in Qandahar, Afghanistan, before U.S. military action 
in 2001 brought down the Taliban regime which had protected al-
Qa'ida. Although al-Qa'ida's BW efforts have been disrupted, we 
judge its intent to pursue biological weapons continues.
    In addition to al-Qa'ida, I am concerned with like-minded 
extremist groups and lone wolves, both foreign and domestic, 
who could develop biologic weapons. The technology and 
knowledge that produced simple yet effective biological agents 
is readily available in the United States and overseas.
    With the increase in radicalization worldwide, it is 
conceivable that some converts will have knowledge of the 
biosciences or engineering and will use their skills to present 
bioterrorism.
    I understand the subcommittee is particularly concerned 
with the impact of biotechnology on the development of novel 
and engineered biological threats, those that are designed to 
evade our medical countermeasures and detection systems. In 
this area, we must exercise caution and not confuse the 
capabilities of terrorists with state level biological warfare 
programs.
    There is no doubt that the knowledge and technologies today 
exist to create and manipulate agents. However, the 
capabilities of terrorists to embark on this path in the near 
to midterm is judged to be low. Just because technology is 
available does not mean terrorists can or will use it.
    In general, we see terrorists in the early stages of 
biological capabilities, and we do not anticipate a rapid 
evolution to include sophisticated methods that will enable the 
creation of new organisms or genetic modification to enhance 
virulence.
    That being said, we must not mistake unsophisticated 
weapons for those that are ineffective. Even crude biological 
preparations can cause significant health and economic damage 
if well disseminated.
    The Department of Homeland Security intelligence is working 
closely with the Bioscience Community and our Intelligence 
Community partners to make unique contributions to ongoing 
counter-bioterrorism work. Our role is to analyze potential, 
domestic and international biologic threats and to ensure that 
the homeland perspective is represented in threat analysis and 
collection.
    We also augment and enhance bioterrorism-related programs 
and activities that benefit the homeland mission. To this end, 
my Office of Intelligence and Analysis, has established a 
dedicated biothreat section in our Threat Analysis Division. 
The officers in this section provide intelligence support on 
bioterrorism and naturally occurring biological threats such as 
influenza to our DHS components, Intelligence Community 
colleagues and to our Federal, State, local, tribal and 
international partners.
    The Office of Intelligence and Analysis leverages 24 by 7 
the technical reachback to the Department of Energy's national 
laboratories, sponsored by the Department of Homeland Security 
Science and Technology Directorate. We also partnered with the 
Science and Technology Directorate on the first national 
bioterrorism risk assessment, which connotatively evaluates 28 
biothreat agents based on threat, vulnerability and 
consequence.
    The Office of Intelligence and Analysis last year 
established a biological advisory panel of bioscience experts 
from academia and industry. This panel assisted the Department 
of Homeland Security with forecasting trends in biology that 
could manifest as homeland threats in the next 5 years. We will 
continue to work with these and other experts on the biological 
threat.
    The Department of Homeland Security intelligence officers 
collaborate with the National Counterterrorism Center and the 
Federal Bureau of Investigation at the State and local level in 
providing first responders with WMD threat briefings and in 
providing indicators and warning so officials in the field know 
how to identify and report potential bioterrorist activities.
    Before I conclude, I would like to emphasize the crucial 
importance of collection in our intelligence efforts to combat 
bioterrorism. As the WMD Commission last year identified, the 
Intelligence Community has significant intelligence gaps with 
respect to bioterrorism and biological weapons. Any effort to 
enhance biointelligence must focus on targeting and collection 
first.
    Without current specific information, any analysis is 
merely an educated guess. While integrating scientists, 
physicians and other specialists into intelligence analysis has 
merit, and we have such personnel in the Office of Intelligence 
and analysis and obviously across the Intelligence Community, 
it alone is not the solution to biointelligence. We simply must 
have more collection.
    Thank you again for inviting me here today. You have my 
commitment that the Department of Homeland Security 
intelligence will continue to partner with our Science and 
Technology Directorate, the Department of Homeland Security 
components and the Intelligence Community at large to target, 
collect and analyze information on foreign and domestic 
biological threats.
    [The statement of Mr. Allen follows:]

                 Prepared Statement of Charles E. Allen

                         Thursday, May 4, 2006

Introduction
    Chairman Linder, Ranking Member Langevin, Members of the 
Subcommittee: Thank you for inviting me here today to discuss a very 
important topic for the DHS Intelligence Enterprise and for the rest of 
our Intelligence Community.
    The consequences of a high-impact bioterrorist attack upon the 
Homeland could be catastrophic, rivaling the casualties and economic 
damage caused by the detonation of a nuclear device in a major city. 
Because the potential consequences of bioterrorism are so great, and 
the knowledge and materials for biological weapons (BW) development are 
likely to become more available in the future, the Department of 
Homeland Security ranks the BW threat among its highest concerns.
    In this statement, I will first describe the BW terrorist threat we 
currently face as well as the prospects for terrorist-developed 
advanced BW, followed by a brief discussion of the importance of 
collection to BW intelligence. I also will describe efforts DHS 
Intelligence is taking with the Intelligence Community to combat 
bioterrorism.

Defining the Bioterrorist Threat
    We know that al-Qa'ida in the late 1990s began developing a 
biological weapons program and constructed a ``low-tech'' facility in 
Qandahar, Afghanistan, for BW production before US military forces 
disrupted this activity. Even though subsequent US intelligence and 
military operations in the region have further damaged al-Qa'ida's 
leadership and operational capabilities, we believe al-Qa'ida's intent 
to develop biological weapons likely continues.
    We know that domestic actors involved in acts of bioterrorism over 
the past 20 years have exhibited increasingly lethal objectives. A 
review of more than 120 cases of domestic bioterrorism and biocrimes 
reveals that more than two-thirds of these perpetrators were motivated 
by political or ideological goals--the same motivations that drive many 
terrorists. Although the object of these attacks were individuals or 
small groups, extremist ideology has been the genesis for mass casualty 
terrorism and the potential exists for this type of small-scale actor 
to scale-up their efforts and pose a more significant problem.
    Perhaps the most difficult target--and potentially the most 
significant and likely to succeed on some scale--is the ``lone wolf.'' 
An individual with training in the biosciences and operating alone 
could use small-scale production to yield an effective biological 
weapon. One does not need a significant infrastructure or multiple 
personnel to produce an effective biological weapon and this activity 
could go on undetected in the Homeland. We are especially concerned 
that small, loosely affiliated cells or individuals within the United 
States could conduct biological attacks. Such groups or individuals may 
not be affiliated with al-Qa'ida but merely subscribe to its ideology, 
similar to the small cell that conducted the July 2005 suicide bombings 
in London.
    I understand that the Subcommittee is particularly concerned with 
the impact of biotechnology on development of novel and engineered 
biological threats--those designed to evade our medical countermeasures 
or detection systems. In this area we must exercise caution and not 
confuse the capabilities of bioterrorists with state-level BW programs. 
There is no doubt that the knowledge and technologies today exist to 
create and manipulate bio-threat agents; however, the capability of 
terrorists to embark on this path in the near--to mid-term is judged to 
be low. Just because the technology is available does not mean 
terrorists can or will use it.
    It is vital that we keep in mind that all the equipment and 
knowledge to create highly-effective biological weapons is openly 
available today and can be remarkably low-technology. In general, 
terrorist capabilities in the area of bioterrorism are crude and 
relatively unsophisticated, and we do not see any indication of a rapid 
evolution of capability.\1\ It is, therefore, unclear how advancements 
in high-end biotechnology will impact the future threat of 
bioterrorism, if at all. All it would take, however, for advanced BW 
development is one skilled scientist and modest equipment--an activity 
we are unlikely to detect in advance.
---------------------------------------------------------------------------
    \1\ It is important that we do not confuse sophistication with 
effectiveness. Even a crude biological weapon can cause significant 
casualties and economic impacts.
---------------------------------------------------------------------------
    With respect to the evolution of bioterrorism, we would expect to 
see use of traditional biological agents (anthrax, plague, tularemia, 
and others) before the appearance of advanced BW agents. Therefore, we 
would consider the use of traditional biological weapons more 
frequently or on a large scale to be a trigger that may indicate 
movement towards more advanced biological weapons.
    For all we know about the bioterrorist threat today, I am more 
concerned with what we do not know. As the Commission on the 
Intelligence Capabilities of the United States Regarding Weapons of 
Mass Destruction (WMD) last year identified, there are significant gaps 
and obstacles to our current knowledge of BW capabilities and even more 
so with respect to specific plans, methods, and targets.

Developing Bio-Intelligence
Targeting and Collection are Critical Components
    The Intelligence Community has significant intelligence gaps with 
respect to bioterrorism and biological weapons and any effort to 
enhance bio-intelligence must focus on targeting and collection first. 
Without current, specific information, any analysis is merely an 
educated guess. Human intelligence is absolutely essential for 
identifying plans, intentions, and targets of bioterrorists 
domestically and overseas. Analysis of how the Intelligence Community 
handled the former Soviet Union's BW program, the Iraqi BW program, and 
al-Qa'ida's BW efforts clearly demonstrate that human source reporting 
is vital; signals, imagery, and measurement and signatures intelligence 
can only take one so far--plans and intentions are revealed through 
insider information.
    While integrating scientists, physicians, and other specialists 
into intelligence analysis has merit--and we have such personnel in the 
Office of Intelligence and Analysis and across the Intelligence 
Community--it alone is not the solution to bio-intelligence. Our 
difficulties do not come from analyzing scientific information, but in 
obtaining credible, relevant information to analyze. To this end, the 
IC should look to more than just relying on scientific and technical 
specialists only for analysis, it should also partner with science and 
academia to contribute to the targeting and collection of information 
on the bioterrorist threat. This does not mean training physicians as 
spies, but there is a great amount of overt, public, or semi-public 
information that medical and scientific personnel come across that is 
of value to us.

Targeting: Materials or People?
    Past targeting of BW activity has focused on dual-use equipment. 
This was somewhat possible when tracking large-scale state BW efforts, 
but it will be increasingly difficult to track, forecast, and control 
such materials and knowledge, especially on the smaller scale of 
bioterrorism. The equipment that terrorists would need has a multitude 
of legitimate uses as that can be found in a variety of legitimate 
entities worldwide. While tracking potential bioterrorism materials 
will remain important, we may be better off focusing primarily on 
tracking persons with the motivation, intent, and capability to become 
bioterrorists.
    We need to focus our intelligence efforts on developing better 
intelligence about the plans and intentions of those who would carry 
out an attack. Toward this end, my Office of Intelligence and Analysis 
is managing an effort to fuse all-source intelligence, including open 
source, to identify individuals with technical training and credentials 
who interact with foreign persons of concern. The interaction of these 
individuals can give early indications of intent to develop biological 
weapons and other WMD for use against the Homeland. These indications, 
when identified, serve to focus collection and monitoring through 
intelligence means in order to characterize and assess potential 
developing threats.
    There are specific legitimate entities which could be major sources 
of information about individuals or groups who may be seeking to 
develop expertise in new technologies for malicious purposes, yet there 
is no effective process for collecting and analyzing this information. 
DHS' Office of Intelligence and Analysis is investigating how we may 
partner with these entities to keep informed on developments and 
suspicious activity.

Bioterrorism Intelligence within DHS Intelligence
    Within the Office of Intelligence and Analysis' Threat Analysis 
Division, we have established a dedicated section for Bio-Threats with 
the mission to conduct all-source intelligence analysis on both 
bioterrorism and naturally-occurring biological threats, such as avian 
influenza. This section also seeks to identify new bio-threat 
information through programs with US Government partners, and it 
performs outreach and liaison with DHS components, Intelligence 
Community partners, non-Title 50 agencies, and State and local 
partners.
    Our Bio-Threat Section is staffed with four officers--two of whom 
are PhD-level experts--and we have two vacancies for which we are 
recruiting. In addition to our in-house staff, we have a reachback 
capability to subject-matter experts at several Department of Energy 
National Laboratories. Although most bioterrorism issues are dealt with 
in-house, it is essential that we have 24/7 reachback for technical 
information such as agent production methods, dissemination device 
efficiency, and agent virulence data that we then apply to our analyses 
and finished intelligence products.

Collaboration
    DHS' Office of Intelligence and Analysis does not conduct its 
analysis and production alone; we are well-integrated with the key BW 
analysis and operational elements of each Intelligence Community member 
as well as with the science and technology centers within the Federal 
government. We have no stronger partner in the bioterrorism field than 
the National Counterterrorism Center's (NCTC) Chemical, Biological, 
Radiological, and Nuclear (CBRN) Terrorism Division. On an almost daily 
basis, we confer with our NCTC colleagues on BW issues as well as other 
WMD topics. We also have close relationships with the Federal Bureau of 
Investigation's (FBI) WMD Countermeasure Unit, the Central Intelligence 
Agency's (CIA) Counterterrorist Center (CTC) and its Center for Weapons 
Intelligence, Nonproliferation, and Arms Control (WINPAC), and the 
Defense Intelligence Agency (DIA).
    In addition, we work closely with the DHS National Biodefense 
Analysis and Countermeasures Center (NBACC). The NBACC has provided us 
with technical information on bio-threats and, in return, we supply the 
NBACC with relevant intelligence reports and assessments relating to 
biological weapons threats. The Office of Intelligence and Analysis 
last year partnered with the NBACC to produce the first Bioterrorism 
Risk Assessment under Homeland Security Presidential Directive 10 
(Biodefense for the 21st Century).
    Beyond the Federal government, our Bio-Threat Section has made in-
roads to academia and industry. In 2005 we sponsored two well-received 
workshops to explore current issues in bioterrorism by hosting national 
experts from outside government. There were:
        <bullet> ``Emerging Technologies: Assessing the Future 
        Bioterror Threat'' brought together a panel of leading 
        biotechnology and biological weapons experts to discuss their 
        projections for the bioterror threat to the United States over 
        the next five years. This panel was created as part of a 
        broader DHS effort to establish relationships with key experts 
        in biological fields.
        ``Terrorism and Chemical, Biological, and Radiological (CBR) 
        Weapons: Outlook, Intent, and Constraints'' involved terrorism 
        experts discussing the factors that shape terrorist interest 
        in, and potential use of CBR agents. Key topics discussed 
        include, how recent changes in the nature of Islamic terrorism 
        might affect terrorists' intent to acquire or use CBR agents, 
        how terrorists would measure ``success'' for CBR agent use, and 
        the psychological, social, and operational factors that might 
        affect terrorists' attitudes towards CBR agents.
    The Office of Intelligence and Analysis also is developing 
relationships with our close allies in Australia, Canada, and the 
United Kingdom. For the past two years, we have shared WMD terrorism 
information and technical studies with the United Kingdom, Canada, and 
Australia. This year we will provide the intelligence and threat scene 
setter for the Consequence Management Group--a US, United Kingdom, 
Canada, and Australia working group that shares WMD preparedness and 
response best practices and policies based on the worldwide WMD threat.
    We also engage in bilateral relationships to discuss bioterrorist 
threats. The Office of Intelligence and Analysis recently sent an 
officer to engage the Russian Government on bioterrorism information 
sharing, law enforcement cooperation, and a joint US-Russia 
bioterrorism exercise. We will continue to form international 
partnerships to tackle the threat of bioterrorism as it is impossible 
for one agency or one government to cover adequately such a diverse and 
rapidly advancing field.

    Examples of the Office of Intelligence and Analysis' Work in the 
Area of Bioterrorism
    The Office of Intelligence and Analysis has been productive in its 
bioterrorism analysis and program development. Although some of our 
efforts are classified and cannot be discussed in this forum, we have 
been engaged in a number of endeavors, such as those listed below:
        <bullet> The Office of Intelligence and Analysis founded and 
        chairs the Bio-Threat Intelligence Support Working Group 
        (BTISWG) in partnership with the NBACC in order to provide 
        Intelligence Community-wide intelligence expertise on BW 
        issues. The BTISWG is chaired by the Office of Intelligence and 
        Analysis and vice-chaired by NCTC and includes 12 senior BW 
        officers from CIA, DIA, FBI, the National Security Agency 
        (NSA), and other Intelligence Community members.
        <bullet> Through the BTISWG, the Office of Intelligence and 
        Analysis contributed intelligence information to the first 
        Bioterrorism Risk Assessment called for by HSPD-10. This risk 
        assessment serves as the first quantitative, comprehensive 
        analysis of threat, vulnerability, and consequences of each of 
        28 bio-threat agents..
        <bullet> The Office of Intelligence and Analysis, in 
        partnership with NCTC and FBI, has conducted dozens of WMD 
        terrorism threat briefings to state and local officials in 
        order to provide them with awareness of the threat and to 
        provide indicators and warning information so they may 
        appropriately report any suspicious events.
        <bullet> The Office of Intelligence and Analysis is co-
        sponsoring with the National Counterproliferation Center, the 
        NBACC, and the Department of Health and Human Services a Bio-
        Threat Information Sharing Conference series to match US 
        Government and non-US Government threat-related information to 
        customers in Intelligence Community. We already have had an 
        Intelligence Community-only meeting and plan to have a federal 
        government-wide meeting this summer with similar events for the 
        private sector and state governments in the fall.
        <bullet> We are the integrator and supplier of threat and 
        intelligence information to the National Biosurveillance 
        Group--an interagency body that analyzes environmental and 
        health data to provide early warning of a natural or deliberate 
        biological event.
        <bullet> The Office of Intelligence and Analysis supports 
        development of BioShield Material Threat Assessments and 
        Determinations by ensuring that the baseline threat information 
        and adversary capabilities are accurate.

Conclusion
    The Office of Intelligence and Analysis will continue to partner 
with DHS' Science and Technology Directorate and our DHS components to 
focus strongly on targeting, collecting, and analyzing information on 
foreign and domestic bioterrorist threats. To maintain close contact 
with the scientific community, we will continue our workshop series 
with academia and industry. We also plan to have a satellite Office of 
Intelligence and Analysis office within NBACC at the Interagency 
Biodefense Campus at Fort Detrick to ensure that we have direct access 
to what will be the hub of US biodefense work. My Office also is 
reviewing several initiatives to enable the DHS intelligence enterprise 
to function more cohesively against the bioterrorist and WMD threat and 
to leverage our state and federal partners to develop tactical 
intelligence while maintaining our strategic support to the science and 
technology communities.

    Mr. Linder. Thank you, Mr. Allen.
    Mr. Pease.

   STATEMENT OF BRUCE PEASE, DIRECTOR, WEAPONS INTELLIGENCE, 
 NONPROLIFERATION AND ARMS CONTROL, CENTRAL INTELLIGENCE AGENCY

    Mr. Pease. Mr. Chairman, Ranking Member Langevin, 
Congresswoman Norton. Good afternoon.
    Let me start by endorsing the comments you just heard by 
Mr. Allen and Ambassador Brill. I will amplify this a bit and 
try to summarize, but focusing on the role that bioscience 
plays in our biological warfare analytic efforts.
    Let me start by emphasizing that outreach is an effort we 
take very, very seriously and have focused considerable time 
and energy to strengthen over the past few years. I realize 
that probably few of the outside experts who have spoken to you 
fully understand our capabilities, our intelligence 
capabilities, the nature and scope of our job, or the extent of 
our efforts to continually improve our expertise.
    Let me begin by explaining why we value their expertise so 
highly. We have a broad mission in WINPAC, the office that I 
direct at CIA, to do all we can to protect America from the 
strategic threat of foreign weapons that you have already 
mentioned.
    We are concerned about the states that may develop or 
enhance their biological warfare capabilities, and we are 
concerned about the nexus between biological warfare and 
terrorism. The rapid emergence of new technologies is something 
that we are very seized with and we do try to keep our eye on 
the cutting edge of biological science that could be applied to 
biological warfare.
    Clearly the scientific expertise that we can talk to and 
has made itself very available to us, experts across America 
are very willing to help us, offer us material, insights, and 
approaches that jump-start some of our thinking, and help, 
frankly, spur our thinking in areas that are very beneficial.
    We also are trying hard to bring experts into our own 
workforce and our recruiting is very much aimed at that. We 
have in our workforce world class biological warfare experts, 
some at the doctoral level, some the at the master's level, 
some at the bachelor's level, that are trained intelligence 
professionals applying their skills to biological warfare.
    But this expertise together, attached to the biological and 
biotechnological experts that we can talk to from the outside, 
help us focus on all aspects of the development of the 
biological warfare threat. No matter how many people we put 
together in a room, there is an extra person who is willing to 
offer their services and worth hearing from. We try to do that.
    Having said that, I will repeat, I think, something that 
you heard from both Mr. Allen and Ambassador Brill, which is 
this is not the hard part of the biological warfare threat and 
keeping ahead of the biological warfare threat, especially when 
you are talking about that threat in the hands of terrorists. 
The hard part is getting the information on where that threat 
is actually being developed, what they are developing, how they 
are doing it, and what they intend to do with it.
    That is one of the hardest collection intelligence targets 
that there is in the world. I have in my career spanned many 
intelligence collection targets and intelligence priorities. 
This is the hardest of the hard. The work that needs to be done 
there, as Mr. Allen says, needs to be both relentless and 
creative. Outside experts can help us on both the collection 
front and the analytic front.
    Let me stop it there and turn it over to my colleague, Dr. 
MacDougall.
    [The statement of Mr. Pease follows:]

                   Preapred Statement of Bruce Pease

                         Thursday, May 4, 2006

    Chairman Linder, Ranking Member Langevin, Members of the 
Subcommittee: Good afternoon (morning). Thank you for the opportunity 
to speak to you today about issues we consider critical to our ability 
to combat the threat posed by biological weapons. Specifically, I would 
like to address the role that bioscience plays in our biological 
warfare (BW) analytic efforts, and describe for you how we have reached 
out to biological experts and resources beyond and Intelligence 
Community.
    I should emphasize that outreach is an effort we take very 
seriously and have focused considerable time and energy to strengthen 
over the past few years. I also realize that probably few of the 
outside experts who have spoken to you fully understand our 
capabilities, the nature and scope of our job, or the extent of our 
efforts to continually improve our technical expertise.
    Let me begin by explaining why we value biological expertise so 
highly.
    We have a broad mission to do all we can to protect America from 
the strategic threat of foreign weapons, including biological weapons. 
We are concerned about States that may continue to develop or enhance 
their biological warfare capabilities, and we have assigned a high 
priority to looking for a possible nexus between biological warfare and 
terrorism.
        <bullet> The rapid emergence and spread of new technologies--
        most of which have legitimate applications in biology and 
        medicine--may accelerate the rate of BW agent development; we 
        worry about the possibility that this will lead to future 
        biothreats that may be even harder to detect and thwart.
    Clearly scientific expertise must go hand-in-hand with analytical 
expertise in assessing current and future biological warfare threats. 
For example, to analyze the threat posed by foreign offensive programs, 
we must have the technical know-how to evaluate all aspects of the BW 
cycle--from research and development through agent production, 
characterization, formulation, weaponization, testing, and 
dissemination.
        <bullet> Strong bioscience skills are needed to understand, 
        among other things, the mechanism by which a given biological 
        agent causes disease, how genetically altering an agent might 
        change its structure or function, the feasibility of combining 
        different in a single weapon, possible scenarios for using 
        specific BW agents, the behavior of various agents under 
        adverse environmental conditions, delivery options, routes of 
        exposure, prevention and treatment options, and the clinical 
        effects in exposed victims.
    The information we receive from our collectors, more often than 
not, is not highly technical. However, we often are faced with 
technical, BW-related questions, and for those we rely on in-house 
expertise as well as outside bioscience experts.
    How exactly do we do this?
    We have implemented a two-pronged strategy to ensure that we 
develop and maintain a critical core of bioscience expertise.
        1. The first part of our strategy is the expansion and 
        strengthening of our analytic workforce by recruiting and 
        hiring the best and the brightest candidates with strong 
        technical credentials, and providing them with advanced 
        technical training on BW-specific topics.
                <bullet> Over the past several years, we have more than 
                doubled our number of BW analysts. 94 percent of our 
                total BW and CW analysts have degrees in relevant 
                technical fields such as Biology, Microbiology, 
                Biochemistry, Pharmacology, Epidemiology, Biomedical 
                Engineering, Chemistry, and Chemical Engineering. 57 
                percent hold Master's or Ph.D.-level degrees.
                <bullet> Not only has this increased our depth on 
                substantive BW issues, it has created numerous 
                opportunities for analysts to go off-line periodically 
                for technical training and to attend scientific 
                meetings and exchanges.
                <bullet> We also encourage and pay for analysts to 
                pursue advanced technical degrees.
        2. Secondly, we have institutionalized outreach to scientific 
        experts, including some of the highest caliber researchers in 
        the United States. We have done this through senior scientific 
        advisory groups, partnerships with world-class outside experts, 
        bioliterature workshops on cutting-edge research, IC-sponsored 
        conferences on pressing technical issues, formal technical 
        alliances with commercial and industry partners, national and 
        international scientific meetings, and ad hoc consultations 
        with a wide range of technical exports. Let me give you a few 
        examples.
                <bullet> Under the auspices of the National 
                Intelligence Council, the Science and Technology Expert 
                Partnership (know as STEP) as established to ensure 
                that scientific and technical analysis in the 
                intelligence community reflects the considered judgment 
                of leading US experts. A primary mission was to find 
                highly qualified outside experts to help intelligence 
                analysts reach judgments in specific areas--which our 
                analysts identify. In 2005, the STEP organized 11 two 
                and three day conferences on topics related to BW. Top 
                researchers spoke to our analysts about subjects such 
                as Microbial Engineering and Synthesis, Integrated 
                Global Disease Surveillance, Bio-Enable Nanomaterials, 
                DNA Sequencing and Polymerase Chain Reaction Analysis, 
                and the Applications of Biotechnology Advancements.
                <bullet> Over the past few years, we sponsored two 
                highly technical conferences with invited academic, 
                industry, and government experts on Aflatoxins, and 
                Orthopoxviruses. We tailored these conferences so that 
                leading US bioscientists could address very specific 
                BW-related questions from our analysts, and share their 
                insights on some complex and complicated issues.
                <bullet> We want our analysts to stay current in 
                relevant areas of science. One way we do this is 
                through quarterly bioliterature reviews--sponsored by 
                the IC's Intelligence Technology Innovation Center--at 
                which leading bio-researchers present state-of-the-art 
                briefings in areas of interest to our analysts. 
                Speakers in the past have addressed topics such as 
                aerosol technologies, host-pathogen relationships, and 
                synthetic biology.
                <bullet> In addition to these more formal mechanisms, 
                we have significantly expanded our outreach to US 
                biotechnology and pharmaceutical companies, and to 
                academia to develop an informal cadre of expertise we 
                can consult on an as-needed basis. Our goal is to 
                increase and strengthen such relationships to help us 
                assess and respond to complex technical issues.
                <bullet> You have heard from previous speakers about 
                the value of initiatives such a BioChem 20/20, so I'll 
                only say that we strongly support and are helping to 
                guide this effort. This kind of forward-leaning 
                approach-driven by some of the best minds in our 
                bioscience community--is essential in helping us 
                prevent future technology surprise.
                <bullet> Along these lines, the Intelligence Science 
                Board--Chartered in 2002 to advise senior intelligence 
                leaders on emerging science and technology issues of 
                importance to the Community--has been invaluable in 
                creating linkages between intelligence and expert S&T 
                communities outside the government, including 
                bioscientists.
    Let me say a few words about our fight against BW and bioterrorism. 
Our biological warfare analysts face some unique and formidable 
challenges. First of all, there are few, if any, clear indicators of 
biological weapons development, BW research and legitimate bioscience 
look the same and require much of the same equipment, expertise, and 
infrastructure. It is difficult and rare to find the ``smoking gun.''
        <bullet> You can think of BW analysis as a 1,000 piece puzzle. 
        Each bit of information is a piece of the puzzle, but alone, 
        these pieces probably do not reveal much. Understanding the 
        science of BW is a critical part of what we do, but still, it 
        is only a piece of the puzzle.
                <bullet> Our analysis goes beyond the bioscience to 
                consider other factors that may shed light on suspected 
                BW activities. In the case of a State BW program, we 
                consider factors such as motivation and intent, 
                regional security, military and industrial 
                infrastructures, cultural and religious issues, 
                leadership, and political stability, to name a few.
                <bullet> We spend significant effort working hand-in-
                hand with collectors to identify approaches for 
                obtaining high-value information on BW programs--which 
                typically is among a country's most tightly is among a 
                country's most tightly-held secrets.
    Our goal, and that of others here today, is to obtain better 
information fill the critical knowledge gaps about biological threats 
worldwide. We have taken a number of specific steps toward that end, 
and will continue to look for outside experts may help us further our 
understanding of the BW threat.
    In closing, I would like to say we fully support the efforts of 
Ambassador Brill and the NCPC to strengthen our work force and create 
more effective links to outside expertise. We look forward to working 
closely with the new biological science advisory board in the future.
    I thank the Subcommittee for its interest and assistance.

    Mr. Linder. Thank you, Mr. Pease.
    Dr. MacDougall.

 STATEMENT OF DR. ALAN MacDOUGALL, CHIEF, COUNTERPROLIFERATION 
          SUPPORT OFFICE, DEFENSE INTELLIGENCE AGENCY

    Mr. MacDougall. Thank you, Chairman Linder, Ranking Member 
Langevin and Congresswoman Norton. Thank you for the 
opportunity to speak with you today on this very important 
issue. I will be very brief and summarize my statement on one 
of the activities that DIA has ongoing designed to help 
strengthen our outreach to the scientific community to support 
our analysts who are responsible for understanding the 
biological weapons threats for the U.S. military.
    First, let me say, as was so well emphasized by my 
colleagues here, an assessment of the foreign biological 
warfare threat very clearly requires the biological sciences 
and technical expertise as a core discipline of our 
intelligence activities. Our goal and approach is quite similar 
to our sister agencies in building internal expertise through 
the recruitment of analysts with the technical degrees in the 
biological sciences and ensuring that they have available to 
them the means to sustain the outreach to the scientific 
community.
    As mentioned earlier, there are many interagency programs 
and activities that outreach to the scientific community, 
including DIA, a program called BioChem 20/20. We believe that 
the establishment of the National Counterproliferation Center 
will not only further these ongoing efforts in the Community to 
build upon them with an eye toward greater integration, the 
sharing and leveraging of expertise across the board, thereby 
enabling our defense and homeland communities to better prepare 
and deal with the biological threat.
    Let me very briefly describe and review the program. DIA 
established the ChemBio 20/20 program in the late 1990s as a 
core activity in our Directorate for Analysis. It engages a 
group of leading scientists from across academia, industry and 
the government. Its purpose has been to support Defense and 
Intelligence Communities by looking at and anticipating a 
potential impact of advancing technologies on the biological 
and chemical warfare fronts. It engages analysts, scientists, 
technical personnel from across the Community, in the 
Department of Homeland Security, EPA, Department of Agriculture 
and many others.
    A key element of that program has been the establishment of 
a committee of 20 leading experts in the scientific and 
technical fields from biology, microbiology, engineering and 
the like. This experts committee has been given secret level 
clearances and asked to work very closely with our analysts, 
now to help us in our threat assessments, including looking at 
technologies and processes, in particular, that may impact our 
threat assessments.
    A number of studies have been completed by this program, 
with an emphasis on the potential threat technologies looking 
out over the next decade. Since 1999, we have published over 30 
of these papers on several topical areas.
    These publications are the result of this collaboration 
with our analysts, the Intelligence Community and government 
counterparts and the external experts. Within the Department of 
Defense, we are particularly interested in understanding how 
foreign offensive biological warfare programs may exploit 
emerging technologies and concepts in their research and 
development programs, their attempts to weaponize agents and 
their means of delivering or disseminating them.
    We share these assessments with collectors across the 
Community to further enable them to identify foreign efforts to 
take advantage of emerging scientific and technical 
development. All of these papers are classified and designed to 
alert the policymaker on possible trends and developments and 
to support the acquisition community. We widely distribute 
them, including to key allies.
    On that I would like to summarize.
    [The statement of Mr. MacDougall follows:]

                             For the Record

                 Prepared Statement of Alan MacDougall

                         Thursday, May 4, 2006

INTRODUCTION
    Thank you Mr. Chairman, Mr. Vice Chairman and members of the 
Committee for inviting me today. I would like to briefly address the 
role of bioscientists in our intelligence processes and, in particular, 
the BioChem 20/20 initiative and other Agency outreach efforts to the 
bioscience community designed to help us accomplish our mission.
    Many longstanding challenges exist today, such as integrating the 
science and intelligence communities on biological warfare (BW) issues, 
increasing communication between the intelligence and the life science 
and chemical communities, and improving the interactions between 
technical experts and intelligence analysts in defining and assessing 
the current and future threat. US Intelligence faces the continuing 
task of rapidly identifying, prioritizing, and addressing the wide 
variety of technical knowledge gaps facing BW analysts. Emerging 
threats such as avian influenza and the potential for biotechnology 
surprise or genetic engineering of BW agents pose significant 
additional challenges for intelligence analysis and collection.
    Based on the WMD COMMISSION report's recommendations, the DNI 
proposed to take several specific measures aimed at better 
collaboration between the intelligence and biological science 
communities. DIA has focused its attention on the BW threat and has 
been engaged with a group of leading life scientists academia, industry 
and government in an endeavor referred to as BioChem 20/20.

BACKGROUND
    By way of background, on 25 November 1998, Defense Intelligence 
Agency established BioChem 20/20 as an ad element within DIA's 
Counterproliferation Support Office, the leading analytic element in 
the Directorate for Analysis. The mission of BioChem 20/20 is to lead 
and focus the Defense Intelligence Community's assessments to 
anticipate the impact of advancing technologies on the biological-
chemical warfare threat. BioChem 20/20 focuses on evaluating new 
technologies that nation-states or terrorists could exploit to present 
an array of potential threats to harm humans, plants, animals or 
materiel.
    BioChem 20/20 initiative consists of A Committee of Experts (ACE) 
of more than 20 leading scientific and technical (S&T) experts and a 
select team of DIA and CIA biological warfare analysts. These 
scientific experts work closely within the BioChem 20/20 in assessing 
cutting-edge technologies that could be used to produce unique and 
deadly agents, write papers and assessment on technology and bioscience 
developments as well as lead and participate in discussions on these 
topics with our analysts.
    The ACE members on BioChem 20/20 serve as experts identifying 
critical technologies and processes that are not usually considered as 
part of the emerging threat. Studies generated by BioChem 20/20 
emphasize potential threat technologies looking out over the next 
decade and not previously available or understood by US Intelligence. 
BioChem 20/20's composition consists of scientific and technical 
personnel from US Intelligence and government entities such as 
Department of Homeland Security, Environmental Protection Agency, 
Department of Agriculture, United States Army Medical Research 
Institute of Infectious Disease, National Institute of Health, Chemical 
and Biological Center, Lawrence and Los Alamos National Laboratories, 
National Science and Technology Council, and the Defense Advanced 
Research Projects Agency.
    Since 1999, the BioChem 20/20 group has published over 30 papers in 
categories including: emerging infectious diseases and technologies; 
delivery mechanisms (conventional and innovative); novel agents; 
scenarios and proliferation of BW related items. These publications are 
the result of collaboration among our chemical and biological analysts 
and the ACE, and they attempt to identify and characterize dual-use 
technologies and concepts that could enable an adversary to develop 
unexpectedly effective new CBW agents. These analysts and the ACE 
assess the potential for foreign offensive programs to exploit the 
identified technologies and concepts, including developing, 
weaponizing, delivering, and disseminating biological and chemical 
warfare agents. We share these assessments with the collection 
community to enable them to identify foreign efforts to take advantage 
of emerging scientific and technological capabilities. BioChem 20/20 
papers are classified and designed to alert policymakers and the 
research and development and acquisition communities to possible trends 
and developments in biological and chemical warfare. The papers are 
widely distributed to include allied countries.
    The ACE members on the BioChem 20/20 are compensated only for their 
travel, meals, accommodations, and related expenses while participating 
in the quarterly BioChem 20/20 executive meetings as well as being 
available for consultation and support year round. The initial BioChem 
20/20 meeting was held on the 16 December 1998 at the DIAC. Our last 
meeting was held at Patrick Air Force Base, Florida on and 17 and 18 
January 2006. While ACE members currently hold a secret collateral or 
higher clearance, we are in the process of upgrading all ACE members to 
carry Top Secret clearances.
    BioChem 20/20 was requested to help organize and participate in a 
workshop sponsored by the National Academies' National Research Council 
addressing the impact of biotechnology on the future of bioterrorism.
    BioChem 20/20 drafted the futures section of the 2003 BW NIE and 
produced an Emerging Technology Capstone Threat assessment.
    BioChem 20/20 was specifically called out in the WMD Commission 
report as a valuable US Intelligence program.
    The Jefferson Program, another DIA initiative, was established to 
mitigate technological surprise in the area of bioweapons, toxins, 
advanced biochemicals, and related activities resulting from emerging 
developments in offensive chemical and biological warfare programs. 
This program evaluates and characterizes agents, technologies, and 
foreign infrastructure. In addition, an expert forum meets periodically 
to discuss future threats. The Jefferson Program maintains an online 
unclassified repository containing CBW related information that is 
shared throughout US Intelligence. All tasks under the Jefferson 
Program have an intelligence basis and are intended to address analytic 
intelligence shortfalls. The key focus areas are:
    <bullet> Chemical and Biological Agents: The potential of foreign 
agents and weapons is assessed through analysis of known or suspected 
infectious organisms, toxins, or advanced biochemical agents. The 
distribution of known BW pathogens is assessed to assist in 
differentiating naturally occurring outbreaks from accidental releases 
a state program or intentional use such as in a bioterrorism event. An 
Avian influenza study will provide a baseline of scientific information 
which analysts will be able to identify gaps, drive collection 
requirements and better assess threats.
    <bullet> Technologies: The capabilities of foreign countries to 
convert existing conventional weapons or dual-use devices for CBW use 
and potential advances in CBW agent delivery are evaluated. These 
assessments enable analysts to obtain a reliable and secure technical 
evaluation of foreign material. Current activities include BW analyst 
training and scientific seminars taught by leading scientists outside 
US Intelligence and visits to biotechnology-related facilities.
    <bullet> Infrastructure: The biotechnological production potential 
of select foreign countries with known, suspected, or potential 
offensive BW programs is characterized.
    <bullet> Biological and Chemical Warfare Online Repository and 
Technical Holdings System (BACWORTH 2): A searchable online database 
containing agent information and full text scientific and technical 
documents pertaining to CBW related materials is maintained by DIA and 
shared throughout US Intelligence, Department of Defense, Defense 
Threat Reduction Agency, Military Commands, Department of Health and 
Human Services, and the Department of Homeland Security.
    <bullet> As part of core knowledge and threat assessment, we have 
initiated several efforts to help close intelligence gaps including:
    <bullet> Augmenting select DIA HUMINT field operating elements with 
analytic personnel who are Bio Science subject matter experts that can 
guide and focus collection activities against the highest priority BW 
targets, improve source vetting, and develop new leads and sources 
better HUMINT targeting;
    <bullet> Establishing a DIA HUMINT WMD/Counterproliferation Issue 
Management division to oversee HUMINT collection issue related to the 
CBW functional are and to further analyst-collector integration, as 
well as CIA/DIA coordination;
    <bullet> Assigning DIA HUMINT targeteers to select DI analytic 
elements as well as DIA field activities to enhance collection against 
CBW target sets;
    <bullet> Promoting greater collaboration between analyst and 
collector; and among analysts, law enforcement, and scientific experts 
in academia, industry, and the US Government;
    <bullet> Collaborating with the National HUMINT Collection 
Requirements Tasking Center, US intelligence experts and scientific 
experts in academia and industry to develop technical collection 
support guides on avian influenza and other bio-threats;
    <bullet> Expanding liaison relationships with our close allies;
    <bullet> Establishing liaison relationships with friendly countries 
that are not currently engaged on a scientific and technical level;
    <bullet> Developing more forward-looking analyses to understand 
scientific trends that may be exploited by adversaries to develop BW 
and to position collectors ahead of the problem;
    <bullet> Defining the relationship between US Intelligence (IC), 
the Department of Homeland Security (DHS), and the Federal Bureau of 
Investigation (FBI) to help create and maintain a national technical BW 
database;
    <bullet> Improving capabilities to collect and analyze global 
medical intelligence by engaging with scientific experts in academia 
and industry to acquire data on natural distribution of known BW 
agents, characterize bio-threats risk distribution, database 
information on foreign medical and veterinary pharmaceutical 
capabilities, model foreign nations' medical response capabilities, and 
provide in-depth technical guides to assist in intelligence collection 
against bio-threats.
    Considering the future, DIA will need to:
    <bullet> Consider how best to partner with other entities to 
directly serve customers for BW intelligence, including information on 
research, development, and acquisition elements outside of OSD and the 
combatant commands.
    <bullet> Exploit the long-term collection opportunities with 
greatest potential to provide insight regarding foreign BW capabilities 
and intentions
CONCLUSION
    The Defense Intelligence Agency's BioChem 20/20 project and similar 
initiatives are helping to provide US Intelligence with a cleared panel 
of external technical experts in the life sciences and associated 
fields to assist our analysts and collectors to more fully understand 
indications of emerging biological threats. BioChem 20120 is probably 
the Intelligence Community's most effective initiative for 
collaboration between analysts and external world-class experts.
    Building on the BioChem mission 20/20's, we believe, can further 
enable US Intelligence whether that be for a greater level of in-depth 
external experts review of our products, development of methodologies 
and assessments, support to ``red teaming'' or seeking creative 
approaches to helping us discover advances in the biological and 
chemical sciences that may facilitate foreign/hostile offensive CBW 
programs.
    Ultimately, as a result of close and sustained interaction with the 
bioscience and technical communities through programs like BioChem 
20120, US Intelligence can better address underlying challenges facing 
its counter CBW mission.
    I look forward to your questions.

    Mr. Linder. Thank you, Dr. MacDougall.
    Ambassador Brill, does your agency determine or make any 
judgments as to what is the largest threat to us? Nuclear, 
biological, chemical?
    Mr. Brill. Let me say that the National 
Counterproliferation Center does not do analysis, but I think 
it is fair to say that as we look at the WMD challenges facing 
this country, I would say the first greatest threat of course 
is in any WMD in the hands of a terrorist, whether it is nuke 
or bio, each of which would have a greater impact than a 
chemical, probably.
    Beyond that, I think it is fair to say that we are 
particularly focused on nuclear threats to the United States, 
in state programs and biological threats to the United States 
and state programs.
    Mr. Linder. But you are dealing with the Russians and their 
former programs?
    Mr. Brill. I think it is fair to say that the Intelligence 
Community has, and I would defer to my colleagues to my left, 
but the Intelligence Community has a very broad interest in 
people who are engaged in those kinds of activities.
    Mr. Linder. Is there any agent in the biology area that is 
not dual purpose, or able to be used both for good and for ill?
    Mr. Brill. Well, part of the issue, and I will encourage my 
colleagues to jump in as well, it is not so much agents but it 
is processes, producing things that are inherently dual use and 
then what comes out of that process can be tweaked. But the 
process itself is inherently dual use. But I would encourage my 
colleagues to elaborate on the point.
    Mr. Pease. I think Ambassador Brill had it right. The dual 
use comes from the question of whether the people that we are 
looking at, the potential foes, are looking for a cure for a 
pathogen or looking to spread the pathogen.
    Mr. Linder. To do that you would have to have human 
intelligence?
    Mr. Pease. Human intelligence is irreplaceable in that 
arena. It is certainly not the panacea.
    Mr. Linder. If you are seeking HUMINT in the biosciences, 
do you have to have biological and technical expertise to 
recognize it?
    Mr. Pease. I will answer that as best I can in the 
unclassified arena. Forgive me if I get too cryptic here. 
Technical expertise helps. If you have to choose between the 
two, to choose somebody who can speak to somebody in their own 
language. In their own language may include their own technical 
language. That is a pretty precious skill to come by. You will 
never get enough of that.
    We will never be able to look under every rock we like for 
that HUMINT approach, but it is the one that is most likely to 
yield the kind of intelligence that is actionable.
    Mr. Linder. Mr. Allen, we have had Secretary Chertoff 
before us saying that the greatest catastrophic risks in this 
country are nuclear and biological. The only way to intercept 
that is to have intelligence to prevent it from doing damage.
    We spent $108 million in Homeland Security on airlines. 
What percentage of security is spent on op intelligence?
    Mr. Allen. Out of the entire Homeland Security budget on 
intelligence, my budget of course is classified. But it is a 
very small amount of the entire open budget of Homeland 
Security.
    Mr. Linder. It may be classified to you, but it has been 
discussed openly in these hearings.
    Mr. Allen. I understand that, but I am sworn to support 
Ambassador Negroponte. He of course controls sources and 
methods, and he classifies my budget. My budget is approved by 
Secretary Chertoff but it reflects the priorities of Ambassador 
Negroponte, and he submits this budget to you.
    Mr. Linder. Is it your judgment that most of the 
biosciences technology out there can be got through open 
sources? Are we doing a lot on open source examination?
    Mr. Allen. I don't want to go into details about that, but, 
yes, I think we can say, and it has been said repeatedly by 
many specialists, that there has been a great deal of 
information dealing with how to use bioscience for nefarious 
purposes, and it goes back to literature that has been 
available for many years. It goes back probably to 1960s and 
1970s.
    So there is, even though we worry, as I said in my 
statement, about advanced biotechnology, my worry with 
terrorists deals with, as I said, those who may have some 
knowledge of biotechnology and may be able to use somewhat 
cruder methods. But the results, Mr. Chairman, could be very 
devastating to our country, to our homeland security.
    Mr. Linder. You said that we knew factually that al-Qa'ida 
was seeking to develop BW weapons, and we have disrupted a 
significant part of their network, but we said we judge its 
intent to develop BW continues. Is that based upon a 
presumption, or do we have more information?
    Mr. Allen. I do not want to speak on specifics here but 
based on what has been publicly released and based on the 
statements that we have just seen from the leadership of Osama 
bin Laden, Dr. Zawahiri and others, their intent is to attack 
and destroy the United States and its interests worldwide.
    I think we have every reason to believe that Osama bin 
Laden has never changed his opinion. As you recall, I believe 
there was a fatwa issued back in February of 1998, which said 
it was okay to use nonconventional weaponry in attacking the 
United States and the West.
    I don't believe we have any evidence to suggest that they 
are somehow becoming benevolent in their attitudes towards the 
United States.
    Mr. Linder. Mr. Pease, the biological community is a 
scientific community. Scientists have spent their entire 
academic career going through wide open processes, publishing 
everything, sharing, traveling to seminars in various 
countries, a wide open environment. That is not the 
Intelligence Community's environment.
    Are those two circumstances antithetical?
    Mr. Pease. Antithetical, perhaps not cross-cultural, 
certainly, and you will see the intelligence professionals in 
this room twitch that it is an open room. We know that they can 
learn things in that open environment that we are interested 
in. We know that there is much that they learn in that open 
environment that they are not in a position to judge. Is it 
illicit activity that they are hearing references to completely 
legitimate activity.
    We know that we have got to sift through much low grade ore 
in those kinds of conferences to get the kinds of nuggets that 
are of an intelligence interest and are actionable in the 
intelligence channel.
    We are willing to put up with the cross-cultural 
communication that I referred to to get at some of that 
knowledge. It is a slow, frustrating process to do that.
    Where we do best is where outside biological experts have 
worked with us for long enough that they get a sense of what we 
can use and what is just a distraction to them.
    Mr. Linder. Why is any of this life sciences information 
even necessary to be classified?
    Mr. Pease. The life sciences information I would suggest 
overwhelmingly needs to be unclassified if we are talking about 
healing diseases for people. You would not find me arguing that 
we need to lock down that knowledge or that if we wanted to we 
could. In that knowledge is an inherent threat, and that is 
part of the threat that we live with, and we are all seized 
with just how very real that is.
    Mr. Linder. That is for analytical people?
    Mr. Pease. Indeed.
    Mr. Linder. Dr. MacDougall, have our BW programs that we 
used to have in the 1950s and 1960s ended?
    Mr. MacDougall. Yes.
    Mr. Linder. Have they been helpful to us in learning about 
other proposals, or are they so old with such refined agents 
that they are not applicable to today?
    Mr. MacDougall. No, sir. Actually, we continue to draw on 
the knowledge that was developed during this program, 
activities, and, indeed, I would make sure we catalog the 
amount of that, making it available to the analytic community, 
indications of the kinds of activities we might otherwise 
expect foreigners to pursue. So that is a valuable resource on 
behalf of the analytic community.
    Mr. Linder. Mr. Allen, would it be helpful for us to have 
security clearances for State public health leaders so that 
they could be more involved in the information and be more 
engaged in seeking what might be threatening?
    Mr. Allen. As I indicated in my statement, one of our 
responsibilities of the Department of Homeland Security is to 
serve as a conduit to get information and to share that 
information with State and local governments and with the 
private sector, and we try to do that right across the board on 
all threats.
    Obviously at some levels, in some issues, it is helpful, 
and, of course, we have the ability and the responsibility on a 
select basis to clear people who may need Secret-level 
clearances. This is not a big issue. I sponsor clearances at 
State and local level and obviously with the private sector as 
well.
    Most of our information though is advisory and is out there 
at sort of--at a sensitive but unclassified level for their 
purposes. We have a growing and developing rich relationship at 
the State and local level.
    Mr. Langevin and others, and I have talked about this. We 
have all been up to--he asked us to talk to some people in 
Massachusetts about sharing some information.
    Mr. Linder. Thank you all.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Thank you all for 
your testimony. It has been very helpful.
    I would like to turn our attention, if I could, to the area 
of study of the life sciences and cultural exchanges. One of 
our best defenses, I guess an interesting conundrum, you might 
say, one of our best defenses is to bring people here to see 
the United States, to experience freedom and democracy 
themselves, as opposed to just getting information about what 
the United States stands for from Al Jazeera or other networks.
    Yet if a student comes here to study life sciences, I am 
told, that even at the basic science 101 levels they learned 
quite a bit and could actually--the studies could actually turn 
out to be dangerous, they could choose to use it against us. 
What are your recommendations in the field of managing that 
relationship, who comes here and studies, and your thoughts on 
it?
    Mr. Brill. Well, I would be happy to take an initial crack 
at it. I will defer to Mr. Allen.
    Mr. Allen. I will speak as well.
    Mr. Brill. Speaking as someone who worked in the diplomatic 
realm and who is now in the intelligence realm, I think your 
characterization of people coming to America, learning about 
America is useful. Building those bridges is very important for 
our national security.
    When it comes to studying technical issues, the issue is 
not so much at the basic level. You can study basically almost 
any place in the world now. In fact, the United States higher 
education is competing with a number of other countries, higher 
education institutions.
    So knowledge is rapidly dispersed in the age of 
globalization we live in. I think what is important is that 
when people come to this country we would like to make sure 
when they are doing advance studies they are working in areas 
that are constructive. I think that when they study in the 
United States they tend to study in an environment that 
promotes constructive use of technology as opposed to 
destructive use of it. Generally it is good. We have to be 
careful in some specific areas.
    Mr. Allen. Congressman Langevin, it is a very good 
question. We have to do the balance. Of course, part of the 
responsibilities of the Department of Homeland Security is to 
ensure that as we look at visas and how they are issued for 
students by the Department of State, that these are handled in 
a very careful way.
    Of course, as you know, we have various checklists, and I 
think, from what I see, prior to 2001, what we see today, we 
encourage foreign students from across the world to come and 
study in the United States. I think it is absolutely crucial. 
But there is greater care as visas are issued and students come 
here. We are doing this in a number of visa areas, including 
religious workers where we had a very carte blanche approach 
one time and now it is much tighter.
    Mr. Langevin. In Part I of our hearing, the witnesses were 
all very impressed with the sophistication of the biological 
and medical and intelligence capabilities of the Armed Forces 
Medical Intelligence Center, AFMIC. Of course this is an open-
ended unclassified hearing, if you could please describe the 
major activities of AFMIC and how we might describe that as a 
model beyond military mission of force production and apply 
these techniques to military technology activity.
    Mr. MacDougall. Sir, if you will beg my indulgence, we have 
with me today the chief scientist for the Armed Forces Medical 
Intelligence Center, Dr. Miller. I would like her to respond to 
that question.
    Ms. Miller. Thank you. I am honored to speak with you this 
afternoon. The Armed Forces Medical Intelligence Center is part 
of the Defense Intelligence Agency. We have been part of the 
Defense Intelligence Agency since the early 1990s, but we have 
been part of the medical intelligence since the 1900s, as part 
of the Army.
    We have a long history of doing medical intelligence. Our 
primary role is to look at foreign infectious disease, 
environmental health threats, medical infrastructure, health 
systems and biotechnology trends. We do that in support of the 
White House, the Secretary of Defense and other Federal agents. 
So our role is to look at foreign infectious diseases and how 
they might impact forces being sent overseas.
    But we also now have a role of looking at those foreign 
infectious diseases and what impact they may have on the health 
or welfare of the United States in our role partnering with the 
Department of Homeland Security, Health and Human Services, and 
the USDA.
    So we are actively engaged in improving our scientific 
expertise by having rotations of our partner agencies. We use 
as a model a foreign example for you this afternoon. Our 
military members that are staffed at AFMIC come from the 
medical services of the Army, Navy and the Air Force. They are 
medical professionals. They come to AFMIC for a 3-year tour, 
and we train them in intelligence. So they have scientific and 
technical expertise in their various fields, virology, 
environmental health, industrial hygiene, toxicology. I could 
go on.
    Mr. Langevin. Could I ask, in that respect, that is an 
interesting issue because it raises another question I was 
going to ask. I was going to get back to how we could apply 
these to these techniques, to nonmilitary intelligence 
activities. But the other thing is, is it better to train 
medical personnel in the area of intelligence and analysis or 
is it better to do it the other way around?
    Ms. Miller. Let me answer the first question first, then I 
will get to the second one. I use that military medical 
professionals as a model, because that is a model that I think 
is relevant across the Community. With other agencies, to have 
them come and do a 3-year tour at AFMIC I think would be 
beneficial, not only to AFMIC, because it gives us reachback to 
their agencies, but also to their agencies it gives them 
training and understanding of intelligence and how to apply 
intelligence in their decisionmaking. That is why I gave that 
example.
    I think I forgot your second question, if you will forgive 
me.
    Mr. Langevin. If you want to expand on what you were saying 
originally, whether it is better--
    Ms. Miller. To train medical professionals or intelligence 
professionals. I think you will get a different answer if you 
looked across the table. For medical intelligence, I totally 
agree that you have to have a multidisciplinary team, that 
intelligence is not just about the science, it is about the 
threat. The threat, if it is counterproliferation, may be 
intent, and my colleagues can talk more eloquently about that.
    But in the medical arena, it is contextualizing the 
intelligence. Just because you are a scientist does not 
necessarily mean that you are trained in analysis and can 
contextualize the intelligence. It is really important to have 
a multidisciplinary team.
    Mr. Linder. Would you yield?
    Mr. Langevin. Of course.
    Mr. Linder. I would like to ask you a question on that. We 
have medical personnel at all of our embassies, and we have 
undercover people at many embassies for the CIA. Would it be 
helpful for them in our program to have a 10-week course in 
epidemiology to recognize some of these problems?
    Ms. Miller. Well, you are speaking to an epidemiologist so 
I guess my answer would probably be--epidemiology is a 
multidisciplinary field. It trains you to look at the question. 
My background is, I am a former epidemic intelligence, foreign 
intelligence officer from the CDC. So I have been trained to 
look at what is the question.
    That is the bottom line for intelligence, too. You have to 
use the evidence that you have from your science background, 
but you also have to answer the question in an actionable form.
    Mr. Linder. Which you did not do. The question was, would 
it be helpful to have some epidemiology training for--
    Ms. Miller. Well, I am not sure I should tell the 
Department of State what to do with their medical officers, 
but, yes, I do believe it would be helpful.
    Mr. Linder. Thank you.
    Mr. Langevin. Can you touch upon the Armed Forces Medical 
Intelligence Center's real-time monitoring that you do, and is 
that a robust system in terms of being able to know rather 
quickly if there is an outbreak somewhere? Or if there is 
something that doesn't look like something naturally occurring 
or a bioweapons attack or something that would happen, would 
you know that real-time or after the fact?
    Ms. Miller. In this forum I would say it has to depend. We 
are focused on specific diseases of concern to military 
operations at this time. If we are talking about real-time 
warning, I don't think there is such a thing within the Public 
Health Community or the Intelligence Community on infectious 
diseases.
    We need to improve public health infrastructure so that we 
can detect events early. That, I think, is part of our Nation's 
goals in partnering with other foreign nations, with health and 
human services and their efforts overseas with the Department 
of Defense overseas laboratories.
    Mr. Langevin. I asked the question, because one of the 
things that we have a concern about is our ability to monitor 
public systems as policymakers, or at the top levels of health, 
and enhancing our ability to respond more quickly if there were 
an outbreak or something to that effect. Is there something you 
wanted to share with us in that respect?
    Ms. Miller. Well, I think we need to continue to be 
vigilant. We need to continue to improve. But intelligence is 
one of the many tools that we use in monitoring the world 
globally.
    And our role is to try to identify those events that may be 
gaps where the Health and Human Services or others don't have 
access to that information and to contextualize those. So we do 
focus very clearly limited resources on key countries that 
perhaps are non-permissive. We do get information in the public 
health community through the WHO and through Health and Human 
Services from many countries directly, and that perhaps we 
should be focused in intelligence where are the gaps. That is 
what we are looking at with our partners.
    Mr. Allen. Congressman Langevin, could I just add to her 
comments. Under the Department of Homeland Security, we have 
the National Bio-Surveillance Integration System that has just 
been standing up under the Chief Medical Officer. This group 
looks worldwide, globally at any kind of early warning, looking 
at open material around the world to see if there are any 
indications of a natural outbreak, or maybe something that 
would be more nefarious. My office provides intelligence in 
support of the National Bio-Surveillance Integration System. 
And we certainly--this group works with AFMIC very closely.
    Mr. Langevin. My last question, if I could, in our last 
hearing it was mentioned that the failure of the Chiron Company 
to provide flu vaccine for the 2004-2005 flu season, and now 
the Avian flu influenza situation are example perhaps of 
intelligence failings. For example, the intelligence community 
would have been well aware of a pending oil shortage or other 
substance considered important for national security. AFMIC 
would know, for example, if the Pentagon had enough vaccines or 
other protective health measures for their soldiers.
    So the question is do you think the intelligence committee 
should include the threat of infectious diseases, whether 
intentionally or naturally occuring, as a threat that must be 
cracked?
    Ms. Miller. Yes, sir, I do.
    Mr. Allen. I think we have no choice, because we have to 
make certain that when we see an outbreak, I think AFMIC does 
it very well, to make certain that this is natural, that it is 
nothing something being spread by bioterrorists. It is 
incumbent on the intelligence community to look at it very 
hard.
    Mr. Linder. Ms. Norton.
    Ms. Norton. I want to thank you for your important work and 
with the new configuration post-9/11, you are the real start-up 
people. I really want to--I have a couple of questions, but I 
want to build on what the ranking member has just indicated, 
because if you were to ask the average American today what bio 
threat concerned her, you would probably come back with 
something that perhaps is not normally understood in the 
intelligence community so much as a quote bio threat, and that 
is, of course, Avian flu. And the President or the 
administration has just rolled out some plans on that with some 
controversy, but it obviously is trying to get ahead of that.
    My question really goes to what the 9/11 legislation was 
trying to do, and one of the things was to deal with the 
stovepiping. Of course, my district is the district which had 
the anthrax matter and was, I think, dealt with well, largely 
because it never spread in the way it might have. But obviously 
with Avian flu, that kind of pandemic that the public has been 
hearing so much about, there is a great concern about whether 
or not this really could be passed to humans, whether it could 
make it here. Indeed, there is some view that yes, it could, it 
is when will it make it here.
    I don't understand and would like to know from you what--in 
some of the other committees, we have talked to CDC. I don't 
understand what, if any, role you play in matters like 
predicting whether or not this kind of pandemic is making its 
way to our shores.
    When you talk about foreign diseases, that is the first 
thing I think the average person would think about, would be 
this flu, and particularly given the fact that it is new, we 
have no vaccine, we don't have any effective drugs, we are told 
that there are very limited--I am not sure if it is 5,000 doses 
of what drug we do have. The plan that was rolled out yesterday 
didn't even say who should get those drugs, limited as they 
are, as a priority. That is, at the very least, it seems to me 
what I would have wanted to know.
    As far as I am concerned, I hope it would go to health care 
workers to handle the rest of us.
    In any case, I am really interested in here is something 
right on the front pages. There you are. Are you relevant to 
it? Do you help predict whether or not it is coming and when? 
What is your relationship to the CDC and others are charged 
with working on this matter?
    Mr. Brill. Let me take a crack at a little bit of an 
umbrella statement and turn to Mr. Allen for more detailed 
comment. As I mentioned in my statement, the challenge of 
pandemics for the intelligence community is that we are there 
to help. It is principally a public health issue. And you have 
to think, I think, about information on bio threats running 
across a continuum of publicly available information, medically 
available information, intelligence kinds of information. I 
think the role of the intelligence community in something like 
a pandemic is to make sure that U.S. authorities have available 
to them information relevant to a pandemic that may not be 
publicly available for one reason or another. One can imagine a 
variety of reasons people might trying to be cover up 
information about it. Our job in that case would be to find 
information that should be available to people.
    Ms. Norton. For example, everybody is looking for a bird to 
fly in, and that is how we might, in fact, find it on our 
shores. Well, could somebody bring in a bird deliberately and 
weaponize, as it were, some bird or other--
    Mr. Brill. That would be clearly an intelligence-related 
activity to be keeping--being alert to those efforts of people 
to take advantage of a nationally occurring disease and to turn 
it into something that would be applied as a weapon. There is a 
role for the intelligence community in that.
    Ms. Norton. Would that be your role, from what I just 
described. CDC is supposed to look for the bird flying up 
there. Who looks for somebody bringing in a bird?
    Mr. Brill. Let me defer. What NCPC does is what you 
referred to as post-9/11, is breaking down stovepipes. We are 
part of the OD&I, bringing people together. The second 
conference of U.S. Government officials, as I mentioned in my 
opening statement, is about bringing the intelligence community 
together with the rest of the U.S. Government agencies that are 
involved in issues like international public health questions 
to make sure that information the intelligence community 
generates would be relevant to what they do and information 
they generate would be relevant to helping the intelligence 
community in its mission. It is two different kinds of 
communities, one dealing with basically unclassified 
information, the other dealing with classified.
    Ms. Norton. Do you deal with CDC, for example, now, as I 
speak?
    Mr. Brill. Not personally. The intelligence community does, 
yes. Let me defer now to our Department of Homeland Security.
    Mr. Allen. Thank you very much, Ambassador.
    Congresswoman, obviously, I am speaking from an 
intelligence perspective, and the part of Homeland Security 
works very closely with Health and Human Services, including 
obviously the Center for Disease Control.
    Ms. Norton. Which, of course, is not even in the 
intelligence community, not in homeland security.
    Mr. Allen. I think the Ambassador has described very well 
the intelligence responsibilities, that is to look and try to 
track the spread of the avian flu, and of course, this has been 
detected in Asia and parts of Europe. As you know, the H5M1 
virus, it has notSec.  it has not spread here to the United 
States, and it is very rare and very difficult for either 
poultry or migratory birds to spread this disease to humans. It 
has not been--there has been no cases of human to human 
transmission.
    But, at the same time, and I don't want to speak about all 
the preparations that health and human services and the rest of 
the Department of Homeland Security are undertaking, that was, 
of course, what Ms. Townsend spoke about yesterday from the 
White House. There is an extraordinary effort underway. Our 
role is to look at the intelligence to make sure that we have 
good information and that countries abroad are not hiding the 
extent and spread of that disease.
    Part of our responsibility, of course, is to work with our 
chief medical officer and keep him and Secretary Chertoff 
briefed, and to also work with the National Bio-Surveillance 
Integration group which is under the chief medical officer. So 
it is an effort to ensure that all information, including 
classified information, is brought to bear to Secretary 
Chertoff, to Ms. Townsend and to other leaders in the Secretary 
of Health and Human Services.
    Mr. Pease may have some comments on this about the analytic 
side.
    Mr. Pease. The nexus of disease and use of the disease as a 
warfare tactic, maybe I can illustrate with some cooperation 
that we did with CDC during the West Nile virus--``scare'' is 
the wrong word--but when that was on the front pages of the 
papers. And we had allegations that West Nile was being 
intentionally spread by one of our foreign folks.
    There were allegations in intelligence channels of that. 
That would have been an event and was indeed an event where we 
were very quickly in touch with the Center for Disease Control 
looking for any signs that this is unnaturally spreading. In 
this particular event, it did not play out as a biological 
warfare tactic, it played out as a natural spreading event. But 
that kind of dialog between the intelligence community and the 
Center for Disease Control is what you would expect to happen, 
and what indeed did happen very quickly.
    Ms. Norton. That is exactly the kind of information I was 
looking for, particularly since CDC is not in Homeland Security 
and not in the intelligence network.
    One more question, if I may, Mr. Chairman.
    Ambassador Brill raised an issue that is of great 
importance to me in another of my committees. There is a huge 
issue involving the Federal workforce that has--could be 
depleted tomorrow, frankly, because of early retirement, huge 
issue of competing with the private sector and highly 
specialized personnel. Ambassador Brill, in his testimony, 
alluded to this issue as part of what you see as the mission to 
build a workforce. And I take it it is a Governmental 
workforce. We have got to have folks on the inside and, of 
course, use what is available to us in the private sector.
    But my question really goes to where the exciting things 
are happening. Exciting things are happening in science in the 
private sector. Nobody can put in an amendment to keep them 
from looking at this, that and the other. If you are one of the 
young people, and there are far too few of them, who are 
graduating, particularly with a Ph.D. from one of our 
universities today, one is really left to wonder what it is 
that would draw you to the Federal Government and where we are 
going to get a workforce that is of the quality we need when we 
are competing with the private sector where all the innovation 
and where all the discovery is taking place.
    It is very worrisome to me because I don't see that we are 
able to get workforce in areas that are far less specialized 
and far less skilled than the workforce we will need if the 
biological areas that have been under discussion here today.
    I appreciate how you think we can do that and what we could 
do, what kinds of extra incentives we need.
    Mr. Brill. Let me speak from the perspective of the ODNI 
and urge my colleagues to jump in as well. What it takes, I 
think, is a strategic approach for this very important issue 
across the intelligence enterprise, not one agency at a time. 
In the past, the intelligence community didn't have really the 
authorities to operate personnel issues across the enterprise 
the way it does now with the establishment of the Office of the 
Director of National Intelligence.
    In the counterproliferation area, we plan to take full 
advantage of these authorities to think strategically about how 
we hire and retain the people to do the important work that 
needs to be done at WMD.
    I think, quite frankly, as someone who is not from the 
intelligence community, from the foreign service, I am not a 
scientist, I am one of those classic liberal arts types, but 
what is happening now in the intelligence community and the 
challenges that the intelligence community is dealing with in 
the S&T areas, science and technology area, having been briefed 
in recent months on this, is some of the most exciting and 
challenging science you can imagine a bright young person might 
want to take on. The question is how do we get that word out to 
people, set up a career structure that is attractive and get 
people in to do it. Because we can't go into details in an open 
session, but we want physicists to bend the laws of physics, 
chemists to do remarkably interesting things for us in order to 
deal with the challenges we face in counterproliferation and 
the intelligence community.
    So we have the work that can excite and attract people but 
we have to think as an enterprise about how do that so we don't 
compete with each other and set up a system of incentives that 
will work.
    Mr. Pease. If I could throw in a ray of hope here. The last 
recruiting trip that I went on was last October, in this case, 
out to the west coast. Because of my office, I am trying not to 
recruit technically trained people from academic institutions 
when I go to an academic institution to recruit. Every day that 
I was out there recruiting, I had a full day with people lined 
up wanting to talk to me about working in the CIA. I had not 
anticipated this. I have done this 2 years in a row, the same 
universities, and I expected that because of the increase in 
bad press about CIA that the lines would disappear. Lot of 
lines of people wanting to see whether their skills would be 
suitable to our work, wanting to see if they could launch a 
career where they can make a difference in working against the 
bad guys. It was one of the most invigorating things that I 
have done in the last year, but it is echoed by what I hear 
from my other recruiters that have gone all over the United 
States.
    Ms. Norton. Yes.
    Mr. MacDougall. We have no shortage of good resumes coming 
into the community of the highest caliber technical folks and 
the percentage of Ph.D. and advance degrees in our workforces.
    Ms. Norton. In what fields?
    Mr. MacDougall. All kinds of fields. Microbiologists, 
technical experts in bioengineering and the like, critical to 
this problem set for us. As I think was emphasized earlier by 
my colleagues, building the expertise within the community is 
our first and most important job. We must have experts looking 
at the critical data that help us unlock the secrets in order 
to assess the threats. And that starts with our cadre. We echo 
and we champion the National Counterproliferation Center's 
strategy in this because it is fundamental in my opinion to the 
future of this workforce. So I share my colleague's ray of 
hope. It has been very invigorating. Extraordinarily talented 
folks coming to us.
    Mr. Allen. Congresswoman, I would like to speak also. We 
are just standing up my Office or Intelligence, we are very 
new, and we are standing up a bioterrorism section. We have 
four people working in it and we have two that more we are 
hiring. Two of those officers currently have their Ph.D. We are 
getting good applications. I just reclassified some of my 
positions that are yet to be filled for entry level students 
off the universities. We also sent a small recruiting team to a 
number of universities and the response has been really 
astounding. There are a lot of good, bright young Americans out 
there wanting to work for their country.
    Ms. Norton. The novelty of it should be very helpful to 
you. We have got some of the best and brightest during the new 
deal and people saw new agencies and things the government 
hadn't done before. I had read about what the CIA has done. I 
don't care if it is from CSI or whatever kinds of movies, I was 
very encouraged by that.
    What really encourages me and gives me an understanding 
that I did not have before is your discussion of the 
enterprise. If you want to compete with someone really, really 
juiced up about something about something that a particular 
private sector scientific corporation is doing, one way, and I 
am particularly interested in science, one way might be the 
enterprise nature of the Federal Government, the notion that 
you could, in fact, get work in various aspects, bio threats, 
for example, you could work across the agencies.
    You could get the kind of experience you could never get in 
any one private corporation. Seems to me that would be 
exciting, and maybe even exciting enough to take the pay that 
you have to take or the pay cut that you have to take by coming 
to work for the Federal Government.
    Thank you very much, Mr. Chairman.
    Mr. Linder. I thank you all. This hearing is adjourned.
    [Whereupon, at 4:04 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
